<html>
<title> - EXAMINING THE HOMELESSNESS CRISIS IN LOS ANGELES</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                       EXAMINING THE HOMELESSNESS
                         CRISIS IN LOS ANGELES

=======================================================================

                             FIELD HEARING

                               BEFORE THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                               __________

                            AUGUST 14, 2019

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 116-44
                           
                           
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                              __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
40-162 PDF                  WASHINGTON : 2020                     
          
--------------------------------------------------------------------------------------




                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             PETER T. KING, New York
GREGORY W. MEEKS, New York           FRANK D. LUCAS, Oklahoma
WM. LACY CLAY, Missouri              BILL POSEY, Florida
DAVID SCOTT, Georgia                 BLAINE LUETKEMEYER, Missouri
AL GREEN, Texas                      BILL HUIZENGA, Michigan
EMANUEL CLEAVER, Missouri            SEAN P. DUFFY, Wisconsin
ED PERLMUTTER, Colorado              STEVE STIVERS, Ohio
JIM A. HIMES, Connecticut            ANN WAGNER, Missouri
BILL FOSTER, Illinois                ANDY BARR, Kentucky
JOYCE BEATTY, Ohio                   SCOTT TIPTON, Colorado
DENNY HECK, Washington               ROGER WILLIAMS, Texas
JUAN VARGAS, California              FRENCH HILL, Arkansas
JOSH GOTTHEIMER, New Jersey          TOM EMMER, Minnesota
VICENTE GONZALEZ, Texas              LEE M. ZELDIN, New York
AL LAWSON, Florida                   BARRY LOUDERMILK, Georgia
MICHAEL SAN NICOLAS, Guam            ALEXANDER X. MOONEY, West Virginia
RASHIDA TLAIB, Michigan              WARREN DAVIDSON, Ohio
KATIE PORTER, California             TED BUDD, North Carolina
CINDY AXNE, Iowa                     DAVID KUSTOFF, Tennessee
SEAN CASTEN, Illinois                TREY HOLLINGSWORTH, Indiana
AYANNA PRESSLEY, Massachusetts       ANTHONY GONZALEZ, Ohio
BEN McADAMS, Utah                    JOHN ROSE, Tennessee
ALEXANDRIA OCASIO-CORTEZ, New York   BRYAN STEIL, Wisconsin
JENNIFER WEXTON, Virginia            LANCE GOODEN, Texas
STEPHEN F. LYNCH, Massachusetts      DENVER RIGGLEMAN, Virginia
TULSI GABBARD, Hawaii
ALMA ADAMS, North Carolina
MADELEINE DEAN, Pennsylvania
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
DEAN PHILLIPS, Minnesota

                   Charla Ouertatani, Staff Director
                           
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    August 14, 2019..............................................     1
Appendix:
    August 14, 2019..............................................    67

                               WITNESSES
                       Wednesday, August 14, 2019

Al-Mansour, Chancela, Executive Director, Housing Rights Center..    37
Ansell, Phil, Director, Los Angeles County Homeless Initiative...    12
Dennison, Becky, Executive Director, Venice Community Housing....    32
Gallo, Dora Leong, President and Chief Executive Officer, A 
  Community of Friends...........................................    41
Garcetti, Hon. Eric, Mayor, City of Los Angeles..................    51
Hartman, Erika, Chief Program Officer, Downtown Women's Center...    35
Haynes, Anthony, Speak Up! Advocate, Corporation for Supportive 
  Housing........................................................    34
Horiye, Joe, Western Region Program Vice President, Local 
  Initiatives Support Corporation................................    30
King-Viehland, Monique, Executive Director, Los Angeles County 
  Development Authority..........................................     9
Lares, Margarita, Chief Program Officer, Housing Authority of the 
  City of Los Angeles............................................     7
Lynn, Peter, Executive Director, Los Angeles Homeless Services 
  Authority......................................................     5
Miller, Christina, Deputy Mayor for City of LA Homeless 
  Initiatives, Office of Los Angeles Mayor.......................     3
Murray, Kevin, former State Senator, and President and CEO, the 
  Weingart Center................................................    11
Vizcaino, Alma, Speaker, Downtown Women's Center, on behalf of 
  Domestic Violence Homeless Services Coalition..................    39
Watkins, Tim, President and Chief Executive Officer, Watts Labor 
  Community Action Committee.....................................    29

                                APPENDIX

Prepared statements:
    Dennison, Becky..............................................    68
    Gallo, Dora Leong............................................    73
    Garcetti, Hon. Eric..........................................    78
    Hartman, Erika...............................................    89
    King-Viehland, Monique.......................................    96
    Lares, Margarita.............................................   103
    Lynn, Peter..................................................   108
    Murray, Kevin................................................   117
    Vizcaino, Alma...............................................   119

              Additional Material Submitted for the Record

Waters, Hon. Maxine:
    Wrtten statement of National Community Renaissance (National 
      CORE)......................................................   122
    Written statement of Jane Nguyen, a community organizer in 
      Los Angeles................................................   132

 
                       EXAMINING THE HOMELESSNESS
                         CRISIS IN LOS ANGELES

                              ----------                              


                       Wednesday, August 14, 2019

             U.S. House of Representatives,
                   Committee on Financial Services,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:10 a.m., at 
the California African American Museum, 600 State Drive, Los 
Angeles, California, Hon. Maxine Waters [chairwoman of the 
committee] presiding.
    Members present: Representatives Waters, Sherman, Green, 
and Garcia of Texas.
    Also present: Representatives Napolitano, Chu, Barragan, 
and Gomez.
    Chairwoman Waters. The Committee on Financial Services will 
come to order.
    Without objection, the Chair is authorized to declare a 
recess of the committee at any time. Also, without objection, 
Members of the House of Representatives who are not on the 
Financial Services Committee are authorized to participate 
fully in today's hearing, and members of the local media who 
are invited to this hearing may engage in audio and visual 
coverage of the committee's proceedings.
    I would like to remind all here that any recording of 
today's proceedings is solely to educate, enlighten, and inform 
the general public on an accurate and impartial basis of the 
committee's operations and consideration of legislative issues, 
as well as developing an understanding and perspective on the 
U.S. House of Representatives and its role in our government. 
This coverage may not be used for any partisan political 
campaign purpose or be made available for such purpose.
    Finally, I want to welcome today's audience to this 
hearing, which we will be conducting under the Rules of the 
House of Representatives and the Rules of the Committee on 
Financial Services.
    Today's hearing is entitled, ``Examining the Homelessness 
Crisis in Los Angeles.
    I now recognize myself for 5 minutes to give an opening 
statement.
    Good morning to everyone. Welcome to the Committee on 
Financial Services' field hearing entitled, ``Examining the 
Homelessness Crisis in Los Angeles.'' This is our first Full 
Committee field hearing of the 116th Congress.
    I would like to thank the California African American 
Museum and, of course, the executive director that you just 
met, George O. Davis, for hosting today's hearing.
    As chairwoman of the House Financial Services Committee, I 
have made it a top priority to focus on homelessness. We are in 
a national homelessness crisis. Earlier this year, I convened 
the first-ever Full Committee hearing on homelessness, and 
today, we will continue our discussion by examining the 
homelessness crisis in Los Angeles and the Federal, State, and 
local responses to address this great challenge that is in our 
City and that is facing our nation.
    According to the latest Point-in-Time Count, both the City 
and County of Los Angeles experienced a 12- to 16-percent 
increase from last year in the number of people who are 
experiencing homelessness. On any given night, we have nearly 
60,000 people in the County, while over 35,000 people 
experience homelessness right here in the City.
    I am describing some of our most vulnerable neighbors, 
including families with children, seniors, and unaccompanied 
youth. We cannot ignore that our homelessness crisis is 
directly linked to the affordable housing crisis. Too many 
people cannot afford to keep a roof over their heads as wages 
have not kept pace with rising rents.
    Los Angeles has one of the least affordable housing markets 
in the United States. In LA County, a renter earning the 
minimum wage of $13.25 an hour would need to work 79 hours a 
week in order to afford a 2-bedroom apartment. As a result, 
approximately 721,000 households in the County are severely 
rent-burdened, meaning that they pay more than 50 percent of 
their income on rent.
    We need a bold and comprehensive response at the Federal, 
State, and local level to address the homelessness crisis. That 
is why I have introduced this bill, the Ending Homelessness 
Act, legislation that would provide over $13 billion in funding 
to ensure every person experiencing homelessness in America has 
a place to call home.
    The Financial Services Committee passed this legislation 
earlier this year, and I am committed to doing everything I can 
to get this bill passed into law. Both the County and City are 
working hard to combat the homelessness and affordable housing 
crisis.
    Thanks to voters approving local ballot measures in 2016 
and 2017, the City and County have robust new resources to fund 
initiatives that improve the lives of people experiencing 
homelessness. Proposition HHH has helped fund the development 
of thousands of new permanent supportive housing units, and so 
far, funding for Measure H has helped 14,000 people find 
housing. However, much more needs to be done, including passing 
legislation like the Ending Homelessness Act into law at the 
Federal level.
    Today, we will receive testimony from representatives of 
the County and City, including Mayor Garcetti, who will testify 
on our third panel. We will also hear from housing and service 
providers who are on the ground every day delivering critical 
services to people experiencing homelessness.
    I would like to thank our committee members who are in 
attendance here today. And I am so very pleased to have with us 
Representative Al Green, all the way from Houston, Texas.
    Representative Sylvia Garcia is here, also from Houston, 
Texas. Please welcome her.
    And of course, I would like to thank the members of the 
California delegation, who are not members of the committee, 
who are here today: Representative Nanette Barragan; 
Representative Jimmy Gomez; and Representative Judy Chu. And we 
are looking forward to being joined by Representative Brad 
Sherman.
    I look forward to hearing the witnesses' testimony.
    Today, we have three panels, and I want to welcome the 
first panel for today's hearing. Our first panel of 
distinguished witnesses are: Christina Miller, the Deputy Mayor 
for the City of Los Angeles Homeless Initiatives, that is in 
the Office of the Mayor of the City of Los Angeles; Peter Lynn, 
executive director, Los Angeles Homeless Services Authority; 
Margarita Lares, chief program officer, Housing Authority of 
the City of Los Angeles; Monique King-Viehland, executive 
director, Los Angeles County Development Authority; Kevin 
Murray, former State senator, and president and CEO, the 
Weingart Center; and Phil Ansell, director, Los Angeles County 
Homeless Initiative.
    Without objection, your written statements will be made a 
part of the record.
    And each of you will have 5 minutes to summarize your 
testimony. I will give you a signal by tapping the gavel 
lightly when 1 minute remains. At that time, I would ask you to 
wrap up your testimony so we can be respectful of both the 
witnesses' and the committee members' time.
    Before recognizing Ms. Miller, let me just say that there 
are other elected officials who have joined us here today, and 
I would like all of the other elected officials who are in the 
audience to please stand. We welcome you.
    And Ms. Miller, you are now recognized for 5 minutes to 
present your oral testimony.

  STATEMENT OF CHRISTINA MILLER, DEPUTY MAYOR FOR CITY OF LA 
       HOMELESS INITIATIVES, OFFICE OF LOS ANGELES MAYOR

    Ms. Miller. Thank you very much, Chairwoman Waters and 
esteemed members of the committee.
    My name is Christina Miller, and I serve as Deputy Mayor of 
Los Angeles under the leadership of Mayor Eric Garcetti.
    Chairwoman, I want to begin by commending your leadership 
in introducing the Ending Homelessness Act. While the crisis is 
not as acute in most cities as it is here in Los Angeles, this 
is, undoubtedly, a pervasive issue nationally. It is one that 
has impacted big cities especially, but also rural areas and 
has left many families and individuals without the basic need 
of a safe place to live and thrive. That is unacceptable.
    The only way we find our way out of this crisis is 
together. With decades of disinvestment from the State and 
Federal Government amounting to nearly $500 million per year, 
on average, we need your help to make lasting progress.
    Here in Los Angeles, we find ourselves in a bit of a 
paradox. We are seen as national leaders with the best suite of 
interventions to combat homelessness, yet our numbers increased 
last year by 12 percent Countywide, and the scale of our crisis 
is daunting.
    It is fair to say that most average Angelenos--it is hard 
to feel that progress is being made. It is also fair to say 
that we can't get to everyone living on the streets fast 
enough.
    So the question becomes, how does a City and a County with 
so many resources, with strong, committed leaders and a solid 
strategic plan, have one of the largest homeless populations of 
any city in America? The answer is twofold.
    First, that while we have made tremendous progress in just 
a few short years to outreach, provide services, and place our 
homeless neighbors into housing, this effort only began in 
earnest a few short years ago, and the homelessness crisis in 
LA has been in the making for decades.
    Second, it was especially put into focus for all of us this 
year as our homeless count numbers increased despite record 
housing placement numbers--almost 22,000 people Countywide-- 
that homelessness is a symptom of a much larger macro issue in 
our region and across America. Our homelessness crisis is our 
affordable housing crisis.
    Homelessness has, among other things, become the most 
extreme expression of poverty as the wealth divide grows deeper 
and more acute. So investing in our homeless service system 
alone won't solve this crisis. Concurrently, we must address 
the feeder systems into homelessness and increase affordable 
housing options for people to exit to.
    Let me shift to telling you about the City's response to 
homelessness. This year, the City of Los Angeles homelessness 
budget amounts to $462 million. That is 25 times the 
homelessness budget in 2015, with two-thirds of spending going 
towards permanent housing, as you mentioned, our HHH housing 
bond of $1.2 billion with the goal of housing 10,000 people 
over the course of 10 years.
    Through an action-oriented partnership with the County, 
LAHSA, and philanthropy, the City is focused on a response that 
can be broken down into three areas: preventing homelessness; 
reducing street homelessness; and increasing and preserving 
affordable and supportive housing. Additionally, for the first 
time ever, the City has a place-based strategy in Skid Row, the 
epicenter of the region's crisis.
    I will touch on homelessness prevention first. This is a 
key part of our regional strategy. The City's largest anti-
poverty program is the Family Source Centers, where a multitude 
of services are co-located at 16 centers Citywide, and a range 
of services including legal support, employment, and financial 
counseling are delivered.
    We also have the Rent Stabilization Ordinance, which puts a 
limit on rent increases and requires just-cause evictions.
    The best way to prevent homelessness is to keep people in 
their current homes. So, in addition, the City is scaling up an 
eviction defense program that provides tenancy rights, 
education, landlord mediation services, and legal 
representation, if needed.
    Second, I will touch on our street strategy and interim 
housing efforts. With three out of four people living 
unsheltered in Los Angeles, more than any other city in 
America, our work to address health and safety issues in 
encampments has to be balanced and coordinated with our field-
based outreach and services' response to navigating people to 
housing and shelter.
    We coordinate these efforts through a Unified Homelessness 
Response Center. It is a physical space where City leadership 
from departments are co-located and make real-time decisions on 
how to respond to the complex operational picture on the 
ground.
    While we work to mitigate issues of cleanliness and health 
in encampments, the ultimate goal is to get people off the 
streets for good. Here, we leverage the army of outreach 
workers expanded to 800 Countywide to get households into 
bridge and permanent housing. Simply put, people live on the 
streets because we don't have enough indoor places for them to 
be.
    To address that, through the Mayor's A Bridge Home 
initiative, the City is standing up 26 new interim housing 
projects that will yield over 2,000 beds, total. We have 5 
projects open so far, yielding 247 beds. This is the biggest 
shelter capital program in the nation.
    Third, to touch on our housing efforts, in order to meet 
the needs of our most vulnerable homeless Angelenos, the $1.2 
billion Prop HHH loan program has led to the City more than 
tripling its existing supportive housing pipeline with 110 
projects and over 7,400 units on their way to people living on 
the streets and in other circumstances, putting us on track to 
meet the goal to build 10,000 units of supportive housing by 
2026.
    We have also created the City's first inclusionary zoning 
program, the Affordable Housing Linkage Fee, which mandates the 
inclusion of affordable housing and market rate developments or 
payment of a fee to capitalize our affordable housing programs.
    We have also enhanced our land use incentives through the 
Transit Oriented Communities program and Measure JJJ, which 
will work in tandem with the linkage fee, resulting in more 
mixed-income developments.
    We are strongly advocating for tenant rights in Sacramento 
and supporting tenant protection laws, like AB 1482 on the 
State level--it is an anti-rent gouging and rent cap law--and 
an anti-discrimination law for rental assistance programs. We 
are also firmly committed to innovation.
    Finally, the City has a place-based strategy for the first 
time ever in Skid Row. Emergency State dollars in the amount of 
$20 million have been put forth to address the immediate, 
short-term, medium-term, and long-term needs.
    Thank you so much. That is just a snapshot of what the City 
is doing to address homelessness.
    Chairwoman Waters. Thank you very much.
    Mr. Lynn, you are now recognized for 5 minutes to present 
your oral testimony.

   STATEMENT OF PETER LYNN, EXECUTIVE DIRECTOR, LOS ANGELES 
                  HOMELESS SERVICES AUTHORITY

    Mr. Lynn. Good morning, Madam Chairwoman, members of the 
committee, and members of the LA delegation. I greatly 
appreciate the opportunity to testify this morning, and I will 
have to say that it is much nicer to address you as ``Madam 
Chairwoman'' than ``Madam Ranking Member.''
    I would like to cover some of the recent data on 
homelessness and also some of the trends that brought us here 
and some of the paths out of homelessness.
    Last year, as you indicated, there was a 12-percent 
increase in homelessness in LA County, meaning nearly 59,000 
Angelenos are homeless on any given night. Seventy-five percent 
of them, as the Deputy Mayor indicated, are unsheltered. This 
is reflecting the Statewide crisis in homelessness.
    Of the other 43 continuums across the State, three-quarters 
of them showed an increase in homelessness this year. And that 
increase was greater than the count that we saw in Los Angeles 
largely due to the interventions that you mentioned that the 
voters put in service to house people out of homelessness in 
LA.
    But the count only tells a snapshot. It is a moment in 
time. Our data indicate that in addition to the 59,000 people 
we counted, 55,000 more people fell into homelessness over the 
course of 2018. So, over 107,000 people experienced 
homelessness over the course of the year. That is a flow into 
homelessness of about 150 people a day.
    With the interventions that we were able to deploy--and as 
the Deputy Mayor indicated, they are among the most robust in 
the country--we were able to house 133 people out of 
homelessness on a daily basis. That gap led to the increase, 
and that gap is primarily driven by housing affordability. At 
root cause, this is a crisis of housing affordability.
    Los Angeles is the most populous County in America. We 
would be the tenth-largest State, were we a State, and we have 
the least affordable housing market in the United States by 
multiple measures.
    More than a third of LA renters pay more than 50 percent of 
their income for rent. That is an extraordinary number of 
extremely low-income people hanging on by their fingertips. 
They are one medical issue, or one car repair away from 
homelessness on a daily basis. If we neglect to address the 
root cause of housing affordability--and the California Housing 
Partnership indicates that we have a gap of 517,000 units of 
affordability in the County of Los Angeles--we will not get 
ahead of this crisis, no matter how effective our 
interventions.
    I also want to indicate very clearly that we cannot address 
homelessness without simultaneously addressing structural and 
institutional racism in America. It is a core driver for the 
homeless crisis that we have.
    And there are radical disproportionalities in race, in the 
distribution of people experiencing homelessness in Los Angeles 
and in the United States. Thirty-five percent of the people who 
experience homelessness here are Black. That is against a 
County population of 8 percent African American.
    The drivers for that represent a multitude of things. I 
would like to call out in particular the history of racial 
segregation in Federal policy that drove to deep housing 
segregation in this County through redlining and across the 
nation.
    Federal policy instituted redlining, instituted housing 
segregation, and HUD policy enforced it for decades in the 20th 
Century. As American households were building wealth through 
home ownership, that was exclusively reserved for white 
households. African Americans were blocked out of home 
ownership through those programs, and the wealth-building of 
the 20th Century that occurred left African-American households 
with one-tenth of the wealth of white households in this 
country. That is a major driver for homelessness. There is no 
fallback for many, many African-American households.
    In addition, our criminal justice system over-polices and 
over-incarcerates African Americans, African-American 
communities, and that racial disparity in incarceration has led 
to severe overrepresentation in our criminal justice system. In 
the County of Los Angeles, with 8 percent Black people in the 
County of Los Angeles, 30 percent of our jail population are 
Black.
    Those drivers leave people with severe economic disparities 
and capacities within our housing market and our job market and 
every other aspect of our culture. Those have to be addressed 
if we are going to get to the root cause of addressing 
homelessness in the United States.
    There are a number of resources that the Federal Government 
has constrained over the last few years, CDBG and home funding 
being particularly notable as significant reductions over the 
last few years, but the fundamental formulas that distributed 
the core Federal housing programs that address affordability 
were not fair. California was shortchanged.
    We, in Los Angeles County, have 11,000 units of public 
housing compared to New York City with 170,000 units of public 
housing. So not only are our rents high and our incomes low, we 
do not have the affordability mechanisms like Section 8 in 
public housing that New York has.
    I want to thank you, Chairwoman, for the opportunity to 
address this panel.
    [The prepared statement of Mr. Lynn can be found on page 
108 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Ms. Lares, you are now recognized for 5 minutes to present 
your oral testimony.

 STATEMENT OF MARGARITA LARES, CHIEF PROGRAM OFFICER, HOUSING 
              AUTHORITY OF THE CITY OF LOS ANGELES

    Ms. Lares. Thank you, members of the Committee on Financial 
Services, for inviting the Housing Authority of the City of Los 
Angeles (HACLA) to provide written testimony and to speak today 
regarding the humanitarian crisis in Los Angeles.
    And thank you for introducing H.R. 1856, the Ending 
Homelessness Act of 2019. A special recognition to 
Congresswoman and Chair of the Committee Maxine Waters for 
being a strong, vocal, and persistent champion for our 
community.
    HACLA supports H.R. 1856 so that communities with the 
highest need, like Los Angeles, receive the appropriate 
resources. This is both the most effective and efficient use of 
scarce Federal funding.
    HACLA further supports the concept that priority for 
Federal assistance should be given to communities in which 
local governments, like Los Angeles, have adopted policies to 
aid in ending and preventing homelessness.
    The Los Angeles community has stepped up to the plate by 
taking a collective approach in building and preserving 
affordable housing, committing ongoing rental assistance, and 
increasing supportive services. This commitment was further 
solidified when the voters of Los Angeles approved Proposition 
HHH in the City and Measure H in the County. While we believe 
that local governments and organizations must play a part in 
the solution, we need the Federal Government to be a partner in 
this effort.
    For 10 years, HACLA has taken on the battle to end 
homelessness and to preserve affordable housing by using 
Federal rental subsidies such as the Section 8 Housing Choice 
Vouchers. HACLA has implemented policies giving priority to 
veterans, homeless veterans, homeless families, youth, and 
individuals, and committed vouchers for permanent supportive 
housing, which has led to 19,500 rental subsidies being 
utilized to house formerly homeless households. Without this 
assistance, the count of homeless individuals would be greater 
today.
    Continuing in this effort, in 2017, following the passing 
of HHH and H by Los Angeles voters, HACLA committed an 
additional 5,000 project-based vouchers for permanent 
supportive housing. Within 2 years, HACLA will be utilizing 
nearly 40 percent of its resources to house people experiencing 
homelessness.
    Besides the 36,165 people experiencing homelessness in the 
City, based on the 2019 Point-in-Time Count, there are 18,000 
households on the voucher wait list. In October of 2017, when 
HACLA opened a wait list for vouchers, 188,000 households 
registered for assistance, but the number had to be reduced to 
20,000 via a lottery process. There are also 51,000 households 
registered on the wait list for public housing. At minimum, 
250,000 households are looking to HACLA for hope.
    Clearly, HACLA cannot keep up with the demand without 
additional resources from the Federal Government. HACLA needs 
more vouchers, but with the appropriate funding levels for the 
Los Angeles area.
    HACLA is expending 100 percent of its Federal budget 
authority but only able to utilize 93 percent of the vouchers. 
Average rental payments have increased by 20 percent over the 
last 4 years because of continued increases in the rental 
market, while the incomes of voucher holders have dropped or 
remained the same.
    The average annual income for voucher program participants 
is $16,953, or $1,412 per month, yet the 2019 HUD-published 
fair market rent for a 1-bedroom apartment in Los Angeles is 
$1,384 per month. The reality is that rental costs are high and 
incomes are low.
    With less than 3-percent availability in rental units, the 
success rate in finding a place to live has dropped to 53 
percent for households with a voucher. This is especially 
heartbreaking for individuals who have been unsheltered or who 
waited years on the wait list for a voucher, only to return the 
voucher or have it expire.
    HACLA's inability to utilize 100 percent of its vouchers is 
having a negative financial impact on the agency. The Housing 
Authority funds its program operations with federally provided 
administrative fees for each voucher. With the drop in voucher 
utilization from 100 to 93 percent, HACLA is now receiving less 
administrative dollars. The loss of revenue is further 
compounded when only 79 percent of the determined fees required 
to properly administer the program are received due to a 
proration factor.
    While the focus of H.R. 1856 is on ending homelessness, it 
is also important to support affordable housing for all who 
need it. Homelessness prevention is a vital piece, as the 
homelessness problem will continue to grow if the number of 
people becoming homeless grows faster than we can house them.
    As you are aware, permanent supportive housing is the most 
appropriate solution for people experiencing homelessness and 
to prevent recidivism. New permanent supportive housing needs 
the operating support from a Section 8 voucher to work. HACLA 
is rapidly reaching its limits of vital Section 8 assistance. 
An additional allocation of vouchers from the Federal 
Government would make it feasible for HACLA.
    Thank you.
    [The prepared statement of Ms. Lares can be found on page 
103 of the appendix. ]
    Chairwoman Waters. Thank you very much.
    Ms. King-Viehland, please, go right ahead.

  STATEMENT OF MONIQUE KING-VIEHLAND, EXECUTIVE DIRECTOR, LOS 
              ANGELES COUNTY DEVELOPMENT AUTHORITY

    Ms. King-Viehland. Good morning, Chairwoman Waters and 
Honorable Representatives.
    Thank you for the opportunity to testify on this 
homelessness crisis, I dare say the most critical humanitarian 
crisis facing the County of Los Angeles.
    The Los Angeles County Development Authority (LACDA) is 
resolute in our mission to build better lives and better 
neighborhoods, as well as our commitment to end generational 
poverty and homelessness. Using a combination of local, State, 
and Federal resources, we administer several programs that 
provide housing opportunities for lower-income families, the 
elderly, the disabled, youth transitioning out of foster care, 
and individuals and families experiencing homelessness.
    Moreover, as the second-largest public housing agency in 
Southern California, we administer several federally funded 
programs that help in our efforts to combat homelessness--
including Section 8, Continuum of Care, and VASH-- by providing 
rental assistance for approximately 25,000 families.
    And in light of the magnitude of the homelessness crisis, 
we recognize the need to take a bold step and use all of the 
resources at our disposal to meet the crisis head on and, 
therefore, created a homeless preference that dedicates 100 
percent of our Section 8 turnover vouchers to house homeless 
Angelenos.
    We created partnerships with the 18 other housing 
authorities operating in the County to align our policies and 
streamline access, and we leveraged local resources to develop 
creative, flexible solutions that restricted Federal dollars 
did not allow.
    For example, we created the Homeless Incentive Program, or 
HIP, to remove barriers to access for our voucher holders who 
were finding it next to impossible to use their voucher to 
secure a unit. HIP allows us to engage property owners to 
secure their rental units in exchange for a monetary incentive 
while qualified renters with a voucher are referred to the 
owner.
    We also assist clients with funding to pay for security 
deposits, utility fees, and move-in expenses. Further, each 
client receives access to County-funded intensive case 
management services to help with the transition and ongoing 
supportive services, as necessary.
    The LACDA administered approximately $18 million in the 
first 2 years of Measure H, and these resources helped over 
1,900 individuals and families come home. Additionally, we 
leveraged our partnerships to expand this program, which now 
supports 8 other PHAs in the County who have replicated HIP, 
leading to an additional 825 individuals and families housed 
over the same period.
    We also provide capital funding and rental assistance for 
the creation of new affordable housing. Over the past 5 years, 
the County has provided $294 million in capital subsidy for the 
development of affordable housing, leveraging $2.3 billion in 
public and private funds that created more than 4,200 
affordable units in the pipeline, two-thirds of which will 
serve special needs populations. This year alone, we will fund 
5 times the number of units we funded just 5 years ago.
    However, recognizing that we cannot build our way out of 
the crisis, several actions have been taken by the County to 
keep residents housed. For example, the Board of Supervisors 
passed a temporary Rent Stabilization Ordinance in effect until 
December 2019. The board also passed a Source of Income 
Discrimination Ordinance in April of this year barring owners 
from disqualifying a prospective tenant solely based on their 
source of income like a rental subsidy.
    Despite these creative solutions, and while an 
unprecedented number of affordable and supportive units are in 
construction and being funded, the inflow, due to a myriad of 
institutional and systemic issues, racial and social class 
disparities, lack of economic growth and mobility, continues to 
conflate our efforts.
    We look to our elected officials for actions to help 
address the crisis. We request support in sustaining or 
increasing funding for vital Federal programs, providing 
administrative flexibilities, allowing for regional waivers, 
and redistributing of unused Housing Choice Voucher funding.
    In closing, the activities outlined in this testimony, as 
well as the more detailed written testimony, are indicative of 
the forward-thinking, collaborative approach that has fueled 
our fight, and it is a fight, to end homelessness.
    The solutions to these problems are varied and complex, but 
one thing is clear: We cannot do it without significant 
investment from all levels of government. And the funding 
proposed in the Ending Homelessness Act of 2019 introduced by 
Chairwoman Waters is an excellent example of the type of 
Federal investment needed to combat this crisis.
    Again, the LACDA stands resolute in our mission to build 
better lives and better neighborhoods.
    Thank you for the invitation to address this urgent matter.
    [The prepared statement of Ms. King-Viehland can be found 
on page 96 of the appendix.]
    Chairwoman Waters. Thank you very much, Ms. King-Viehland.
    Senator Murray, you are now recognized for 5 minutes to 
present your oral testimony.

STATEMENT OF KEVIN MURRAY, FORMER STATE SENATOR, AND PRESIDENT 
                  AND CEO, THE WEINGART CENTER

    Mr. Murray. Thank you, Madam Chairwoman, and members of the 
committe, for holding this hearing on what I also believe is 
one of the most crucial issues we face today. It is maybe the 
civil rights issue of our time. For reasons stated previously 
on this panel, one of our main sources of providing a safety 
net to our citizens is to solve this problem.
    One of the things about homelessness policy is that it is 
essentially the Rorschach test of policy issues. If you are an 
affordable housing advocate, that is the driving force. If you 
are a mental health advocate, that is the driving force. If you 
are a civil rights advocate, that is the driving force. If you 
are a criminal justice reform person, that is the driving force 
of our problem of homelessness. The fact is, it is all of those 
things.
    And one of the things I want to urge the committee to do is 
resist the temptation to find and fund a single silver bullet. 
Our current Housing First model, I think, goes in that 
direction. The rise of Housing First has also taken away 
funding for transitional housing.
    The Weingart Center now houses about 600 people a night, 
right on the corner of 6th and San Pedro in Skid Row. We have 
had to transition from a transitional housing operation to a 
shelter and bridge housing operation.
    What that has taken away is, it has taken away the funding 
for life skills and other skills that, even if you put a 
homeless individual into permanent housing, you have not 
necessarily given them the life skills to become a good 
neighbor.
    So, again, I would argue to the committee and respectfully 
request the committee to look at this solution, that we find as 
many solutions as there are for types of people who have gone 
into homelessness and where they come from and that one size 
does not fit all.
    Some of the things we also don't fund are family 
reunification and shared housing and roommates. As some of you 
who have been foster care advocates know, now we actually fund 
family foster care. We do not fund for someone to rent a room 
at a family member's house.
    Our model is strictly build a unit, roughly a 250-square-
foot unit with a bathroom and a kitchen, and try and put a 
person in that unit. Sometimes, those people don't want to 
leave their community, the location where they are. Sometimes 
they just don't like the rules that come from those things. And 
then if they don't take that, we put them temporarily in a 
shelter where most of the clients, frankly, do not want to go 
into shelters.
    So one of the things that we have to do is we have to find 
a multitude of solutions and fund all of those. They do exist, 
but our model kind of stifles that innovation.
    Again, for instance, the County has a flexible housing 
pool. There are flexible programs. But the overwhelming 
majority of the projects that happen in this area are 250-
square-foot studio apartments.
    There are people who need different types of support. And I 
think that, again, I want to emphasize this should be a 
multimodal approach.
    The other thing is, as someone who operates right on Skid 
Row on the ground, we do need to aggressively enforce laws 
against those who prey on the homeless.
    Right now, on Skid Row, there are criminal gangs who are 
literally charging people for a place on the sidewalk.
    So one of the things that we have to do--and I understand 
that our views on criminal justice are not to necessarily be 
aggressive on Skid Row, but we have to find a way to make this 
differentiation because we are leaving people out on the street 
to be preyed upon.
    The next thing we need to do is we need to find humane, but 
more aggressive ways to deal with the service-resistant. The 
fact is there are people who are service-resistant for a 
variety of reasons. It is not all mental health. It is not all 
substance abuse. Sometimes, frankly, it is very rational 
decisions that they make on their part. But we need to be 
aggressive about that.
    And finally, I would like to say that Los Angeles taxpayers 
should be rewarded for taxing themselves to help solve the 
homeless crisis.
    [Disturbance in the hearing room.]
    Mr. Murray. My last--
    Chairwoman Waters. One moment, Mr. Murray. We appreciate 
the enthusiasm, but would you please refrain from interrupting 
the presenters.
    Thank you. Go right ahead. Wind up, Mr. Murray.
    Mr. Murray. The taxpayers have voted to invest billions, 
literally billions of dollars, and the Federal Government 
should recognize that and leverage that money to help us meet 
this problem.
    And finally, Proposition HHH and Proposition H expect to 
build roughly 10,000 units of permanent supportive housing, 
which I support, as one of the solutions. The fact is before we 
get to 10,000, we will run out of Section 8 vouchers to fund 
the revenue for those projects.
    [The prepared statement of Mr. Murray can be found on page 
117 of the appendix.]
    Chairwoman Waters. Thank you, Senator Murray. Thank you 
very much.
    Mr. Ansell, you are now recognized for 5 minutes to present 
your testimony.

STATEMENT OF PHIL ANSELL, DIRECTOR, LOS ANGELES COUNTY HOMELESS 
                           INITIATIVE

    Mr. Ansell. Thank you very much, Madam Chairwoman, and 
members of the committee.
    My name is Phil Ansell. I am the director of the Los 
Angeles County Homeless Initiative. And I am delighted to 
testify before you today regarding the Countywide movement to 
prevent and combat homelessness, which was catalyzed by the 
Board of Supervisors in August of 2015 when they stepped 
forward and accepted a mantle of Countywide leadership to 
combat this crisis.
    In the first 6 months of the County Homeless Initiative, we 
brought together 400 invited government and community experts 
in 18 policy summits to generate on a consensus basis a 
Countywide comprehensive plan to prevent and combat 
homelessness.
    In February of 2016, 47 comprehensive strategies were 
unanimously approved by the Board of Supervisors. And on that 
same day, the Los Angeles City Council adopted the first-ever 
Los Angeles City Comprehensive Homeless Strategy, a testament 
to the deep and new collaboration between the City and County 
of Los Angeles in combating homelessness.
    At that time, the Board of Supervisors approved $100 
million in one-time County funding to jumpstart implementation 
of the strategies and at the same time identify the need for an 
ongoing source of funding, because an ongoing problem cannot be 
effectively addressed with one-time funding.
    In March of 2017, Los Angeles County voters somewhat 
miraculously, in an off-year, low-turnout election, by a margin 
of 70 percent, approved Measure H, a 0.25 percent special sales 
tax generating an estimated $355 million annually for 10 years 
legally dedicated to preventing and combating homelessness.
    We told the voters that in the first 5 years of Measure H, 
we would help 45,000 family members and individuals move from 
homelessness into permanent housing. And in fact, in the first 
21 months of Measure H-supported services and rental subsidies, 
from July 2017 through March of 2019, we helped 14,241 
individuals and family members move from homelessness into 
permanent housing. We are on track to meet our goal of 45,000. 
And in that same 21-month period, Measure H helped over 28,000 
family members and individuals move into interim housing.
    However, as you have heard, despite this extraordinary 
effort by an extraordinary movement, a movement that has 
doubled the number of family members and individuals moving 
from homelessness into permanent housing since 2015, the number 
of people experiencing homelessness in Los Angeles County rose 
between January 2018 and January 2019 by 12 percent.
    Now, as has been noted, our neighboring counties in 
Southern California and the urban counties in the California 
Bay Area all experienced much larger increases, typically 20- 
to 40-percent increases over the same period of time. Without 
Measure H, we would have experienced similarly large increases.
    The fundamental problem is inflow. As noted earlier, in 
2018, 133 family members and individuals every day moved from 
homelessness into permanent housing. But every day, 150 people 
became homeless. That difference, 17 more people per day 
becoming homeless than exiting homelessness, accounts for that 
increase in our homeless population.
    The fundamental reason for that increase is economic. 
People are unable to pay the rent in a housing market governed 
by the law of supply and demand where we have such a severe 
shortage of affordable housing that rents are increasing in 
such a way that is both forcing people who are currently 
renting out of their homes and making it impossible for low-
income households to secure new rental housing which they can 
afford.
    As was previously mentioned, we are in a paradoxical 
situation in Los Angeles County. Just 2 days ago, the Los 
Angeles Times ran a headline that said that communities across 
the United States look to Los Angeles County as a beacon of 
effective practice in combating homelessness. And yet, after 
the City of New York, we have the largest homeless population 
in the United States.
    This paradox is attributable to inflow. We are bailing more 
water out of the homeless boat than ever before, but the hole 
in the bottom of our boat is so large that there is more water 
seeping into our boat.
    Chairwoman Waters' H.R. 1856 exemplifies the sort of bold, 
major action we need from the Federal Government to partner 
with us in the 88 cities, the County of Los Angeles, and our 
hundreds of community- and faith-based partners as part of this 
Countywide movement to bring our homeless neighbors home.
    Thank you very much.
    Chairwoman Waters. Thank you very much.
    Let me introduce to you two of our Members from the Los 
Angeles County delegation who have joined us. Mrs. Grace 
Napolitano is here. And we have just been joined by Congressman 
Brad Sherman.
    I will now recognize myself for 5 minutes for questions. 
And I am going to go first to you, Mr. Ansell. You described 
very well what was happening in the County of Los Angeles. I 
want to know more information about Measure H that was passed 
in 2017.
    I think it is important for everyone to understand that we 
do have funding from the Federal Government for all of the 
United States of America, and that is through the McKinney-
Vento funds. So you get an allocation, just as the City does.
    I was just looking up how much money you receive from the 
McKinney-Vento grants that we send out to all of our States. So 
in addition to that, you have the Measure H, is that correct?
    Mr. Ansell. Yes, that is correct.
    Chairwoman Waters. And you said Measure H is, what, $100 
million?
    Mr. Ansell. No. Chairwoman, Measure H is generating an 
estimated $355 million annually.
    Chairwoman Waters. $355 million. Will you describe to us 
exactly how the $355 million is being spent?
    I thank you for the general overview of what the needs are, 
but now you have started to apply that funding to various 
efforts of the County. Exactly what are they?
    Mr. Ansell. Certainly, Chairwoman, and thank you for the 
question.
    The Measure H ordinance adopted by the Board of Supervisors 
in November of 2016 specified 21 specific strategies for which 
Measure H funding can be utilized. And in the spring of 2017, a 
group of 50 government and community stakeholders developed 
consensus recommendations to the Board of Supervisors regarding 
the utilization of that Measure H funding across those 21 
strategies for the first 3 years.
    The strategies for which most Measure H funding is being 
utilized include homelessness prevention for single adults and 
family members, disability benefits advocacy to assist homeless 
disabled adults to secure Supplemental Security Income and 
veteran disability benefits, interim--
    Chairwoman Waters. Excuse me. If I may, I do understand the 
overall strategy and what you say was adopted. Can you be more 
specific about any monies that have been spent on a project or 
an effort of some kind?
    Mr. Ansell. Yes, ma'am, certainly.
    The two largest categories of Measure H expenditures are 
for permanent housing and interim housing.
    Chairwoman Waters. So have you constructed, built, 
developed permanent housing?
    Mr. Ansell. We only utilize Measure H for capital 
construction to a very limited degree.
    Chairwoman Waters. Okay. So most of your money is spent on 
supportive services?
    Mr. Ansell. Actually, rental subsidies and the associated--
    Chairwoman Waters. How much money have you spent on rental 
subsidies?
    Mr. Ansell. In the prior year, we spent over $100 million.
    Chairwoman Waters. Does that come from Federal funding or 
from Measure H?
    Mr. Ansell. From Measure H.
    Chairwoman Waters. How much money again?
    Mr. Ansell. Over $100 million for rapid rehousing and 
permanent supportive housing. Both rental subsidies and the--
    Chairwoman Waters. How do you spend the permanent 
supportive housing money? Do you cooperate with the City of Los 
Angeles, for example, who may be building low-income housing, 
permanent housing? Do you coordinate with them in order to 
provide the money for the supportive services?
    Mr. Ansell. Yes, absolutely. In fact, the--
    Chairwoman Waters. Give me an example of that.
    Mr. Ansell. The County has a memorandum of understanding 
with the City of Los Angeles, where we have committed to 
provide intensive case management services for the tenants in 
10,000 units of permanent supportive housing, which the City of 
Los Angeles is committed to creating over this decade, 
including the units funded through Proposition HHH.
    So the basic model, Chairwoman, is that we use Measure H to 
pay for the services and, where necessary, the rental subsidy. 
The City funds capital. And we also use other County funding 
other than Measure H for the capital cost of developing new 
permanent supportive housing. And then we couple Measure H for 
services--
    Chairwoman Waters. Lastly, let me just--
    Mr. Ansell. --with Federal rental subsidies--
    Chairwoman Waters. If I may interrupt you, I think you said 
you do direct some of the Measure H money toward capital?
    Mr. Ansell. Only a very small portion.
    Chairwoman Waters. A small portion. Again, most of it is 
supportive services?
    Mr. Ansell. And rental subsidies.
    Chairwoman Waters. And rental subsidies.
    And you have spent exactly--again, if you would reiterate 
how much you have spent on rental subsidies, who did it go to, 
and what is the criteria for that?
    Mr. Ansell. In the past fiscal year, we spent over $100 
million of Measure H for rental subsidies and services in two 
categories. For permanent supportive housing, we provide 
ongoing services and, where necessary, use Measure H to pay the 
rental subsidy.
    Chairwoman Waters. Quickly, can you explain to me who 
qualifies for rental subsidies? Who gets that money?
    Mr. Ansell. We have a coordinated entry system, as required 
by the Federal Government, which we use to match homeless 
families, youth, and individuals to permanent housing 
resources. So for permanent supportive housing, it is those 
persons who are the most vulnerable and have the highest acuity 
under our assessment tool.
    For rapid rehousing, which is a time-limited rental subsidy 
with time-limited services, we serve a range of families and 
adults experiencing homelessness.
    Chairwoman Waters. Thank you very much.
    The Chair now recognizes Representative Al Green from 
Texas, who is also the Chair of our Subcommittee on Oversight 
and Investigations, for 5 minutes for questions.
    Mr. Green. Thank you, Madam Chairwoman. I thank the 
witnesses for appearing as well.
    Madam Chairwoman, I am proud to say that I am a person who 
supports your bill, the Ending Homelessness Act, and here is 
why. The senator is eminently correct. This is bigger than any 
one single crisis. It is an affordable housing crisis, it is a 
living wage crisis, a mental health crisis, a substance abuse 
crisis, an incarceration crisis, and it is also an invidious 
discrimination crisis.
    It really is comparable to a disaster. It is a disaster 
that is unnatural. For our natural disasters, we spend untold 
amounts of money--Katrina, over $100 billion; Harvey, over $100 
billion. This bill is $13.3 billion, and it takes a holistic 
approach to dealing with this unnatural disaster.
    So, Madam Chairwoman, I am grateful that you have this 
bill. And if I may, I would just like to ask the panel, are you 
familiar with this bill? If you are, would you kindly extend a 
hand into the air, those who are familiar?
    [Show of hands.]
    Mr. Green. You are. Do you believe that this bill is a part 
of the solution to the crisis? If so, would you raise your 
hand, please?
    [Show of hands.]
    Mr. Green. I would like to know now--I always like to build 
a record--what about the LGBTQ community? There was not a 
mention of the crisis with young people who happen to be LGBTQ.
    I have information indicating that approximately 40 percent 
of the young people who are on the street homeless are a member 
of the LGBTQ community. Anyone have any additional information 
that you can share on this topic?
    Mr. Lynn?
    Mr. Lynn. Representative Green, the data that we have 
locally would indicate that the number is less than that, but 
substantially greater than the general population. The 
prevalence of both youth who do not identify as male or female, 
but as a nonbinary youth, transgender youth, and LGB youth, 
represent about a quarter of the youth in our population who 
are homeless.
    But it is a tremendous overrepresentation against the 
general population prevalence, and I think these youth are at 
particular vulnerability. There are a number of reasons why. 
They may not fit in at home and may not feel welcome or may not 
be safe. And fleeing violence is one of the main reasons for 
this population in particular to end up homeless.
    We do have programs that specifically target that. I would 
like to call the attention of the committee to the Equal Access 
Rule rollback that HUD has proposed. It is expected to come out 
in September, but this is a very damaging proposal.
    HUD had moved the nation forward in addressing the rights 
and access of the transgender community in our shelter 
inventory and required all communities to provide equal access. 
That rule is being rolled back, and that will have devastating 
and life-threatening consequences for our trans youth and trans 
adults nationally.
    Mr. Green. Here is what I would like to do. I have a 
staffer with me today, and I will make sure that that staffer 
visits with you after this hearing.
    Let me move quickly to criminal records. I was a small 
claims court judge for a while, a JusticeCorps judge, and I 
understand how people acquire criminal records for penalties 
that require a fine only. And they go to jail not because of 
the fine initially, but because they don't show up in court to 
pay the fine because they don't have the funds to pay it.
    And I am just curious as to the number of people on the 
street who are homeless because of the inability to pay a fine 
or because they were at some point charged with failure to 
appear in court?
    Mr. Lynn. Sir, we don't have data specifically on that 
statistic. I will say that of the single adults who are 
unsheltered in our population, which is the vast majority of 
people experiencing homelessness in the County of Los Angeles, 
63 percent have a history of incarceration in jail or prison. 
So, there is a very large overrepresentation of people who are 
homeless and people who have some degree of involvement with 
our criminal justice system.
    There are devastating consequences to any amount of 
incarceration, any amount. People lose time in their jobs, they 
get fired, people lose their apartments for not meeting those 
requirements. But I don't have specific data on the number of 
people who are homeless simply for failure to appear.
    Mr. Green. I am abusing the time now. I will yield back, 
Madam Chairwoman.
    And I will make sure that we get with you, Mr. Lynn. Would 
you provide something more for me in writing?
    Mr. Lynn. Yes, sir. Thank you.
    Mr. Green. Okay. I yield back, Madam Chairwoman. Thank you 
for the time.
    Chairwoman Waters. Thank you very much.
    The Chair now recognizes Representative Sylvia Garcia from 
Texas, who is a member of the Financial Services Committee, for 
5 minutes for questions.
    Ms. Garcia of Texas. Thank you, Madam Chairwoman, and thank 
you so much for your leadership and also welcoming us to your 
district.
    Your efforts in making homelessness a top priority for our 
committee are significant not only for this City, but for 
cities across America. Your leadership in holding one of our 
first hearings about this subject and making sure the committee 
passed the Ending Homelessness Act as our first markup was 
monumental.
    I am really here to listen today, and I appreciate from 
everyone their time here today and appreciate the moving 
personal stories, along with the policy recommendations that 
people are making.
    Two weeks ago, I went to Detroit and learned about how the 
ripples from the financial and foreclosure crisis are still 
pushing people out of their homes, often illegally, 11 years 
after the Great Recession. Today, I am learning about the 
unique challenges that Los Angeles is facing with homelessness 
over the last year and over 58,000 residents in LA County. By 
comparison, in my area that number is less than 4,000. Two big 
urban cities, big difference.
    This is a homelessness problem that is much worse than what 
we face in Houston, obviously, but I want to understand what is 
driving this crisis and what are the best policy solutions.
    As a former social worker, and also now as Vice Chair of 
the Majority Leader's Task Force on Urban Poverty, I know we 
need to focus on supporting wraparound services at the local 
level to fully address the immediate needs of people in the 
homeless cycle while also looking at what structural reforms, 
as Mr. Lynn mentioned, we could make in our nation's economy so 
that we can make sure people aren't driven to homelessness in 
the first place.
    This committee and this Congress as a whole need to look 
not only at the short term, but, more importantly, the long-
term challenges ahead so that we can offer a basket of national 
policy options to make sure that every American city that faces 
this crisis can deal with it.
    So, first, I want to start by saying that in my mind, the 
homelessness issue and the housing crisis in this country is a 
civil rights issue that we must tackle firsthand.
    I would like to start this morning with asking Mr. Murray a 
question. Mr. Murray, I, too, am a former State Senator and I, 
too, like you, worked on many of the issues that we are talking 
about here today.
    While I have not had a chance to fully visit your City, I 
did have the staff drive me by this Skid Row everybody keeps 
talking about. It is unlike anything like I have seen before, 
and I just wanted to ask you a question about this whole notion 
of wraparound services.
    What is the greatest need in our system today that we need 
to make sure that we put in place not only in your City, but in 
cities across America who face the same challenges that Los 
Angeles does?
    Mr. Murray. I think it is a variety of things, and I think 
it adjusts depending on the client, at least in my view.
    Down on the ground, we have shelter people who literally 
don't want any services and just want sustenance for that 
night, and you are not going to convince them or it is very 
hard to convince them to take more. Then, you have people who 
want to turn their lives around, and some of those people have 
severe mental health issues. Some of those people have 
substance abuse issues.
    The other factor is that if they are on the street for more 
than a year, more than likely they have developed some sort of 
trauma, which leads to PTSD or some other kind of mental health 
services. So I would say if you were looking for a singular 
thing to make sure that we include in the wraparound services, 
it would be mental health services, but a variety of them.
    Some of them are going to be substance abuse. Some are 
going to be PTSD. Some are just going to be life skills. After 
you have been out on the street for years, sometimes you need 
some help just becoming a good neighbor so that you are more 
likely to thrive in your new housing placement.
    Ms. Garcia of Texas. Thank you.
    Ms. Lares, are you familiar with H.R. 2763, a bill I filed 
to challenge the proposed rulemaking from the current 
Administration on, frankly, kicking about 60,000 children 
across America out of public housing? It is my mixed-status 
family bill. If you are familiar with it, what impact would it 
have on this City and this County?
    Ms. Lares. I am familiar with both the proposed rules for 
mixed families, as well as the proposed immigration rules. I 
can share with you what the impact would be here in the City of 
Los Angeles on public housing.
    On the proposed bill for the mixed families, that would 
impact 11,000 individuals in both our public housing and 
Section 8 program. The proposed immigration rule, that would 
impact 18,000. So, these are two separate numbers potentially 
impacting more than 30,000 individuals and their households.
    Ms. Garcia of Texas. So if the regulation were put in 
place, how many of those would be children?
    Ms. Lares. For the mixed family, a couple thousand. For the 
proposed immigration rule, we are talking about 3,000.
    Ms. Garcia of Texas. Are you talking about the public 
charge rule?
    Ms. Lares. Public charge, yes.
    Ms. Garcia of Texas. So both would have a severe impact on 
those families?
    Ms. Lares. Absolutely.
    Ms. Garcia of Texas. Thank you.
    I yield back, Madam Chairwoman. Thank you.
    Chairwoman Waters. Thank you very much.
    The Chair now recognizes Representative Brad Sherman, from 
the 30th District of California, who serves on the Financial 
Services Committee, for 5 minutes for questions.
    Mr. Sherman. Thank you.
    The homelessness issue is a combination of issues. Some are 
homeless because of substance abuse and psychological problems 
and trauma. Some are mostly homeless because the rent is too 
damn high. They can't afford it. And I am going to focus this 
panel on that second group, people who would be in an apartment 
if we had Wichita rents, but we have Los Angeles rents.
    And I would say that this group of homeless people is just 
the tip of the iceberg. For every person sleeping in their car 
or sleeping in the park, there are 10 people who can barely 
afford their rent. There are 10 people who have an unlawful 
detainer that they are worried about, and they are at a payday 
lender trying to--there are 10 people who are cutting back on 
their medication so that they can pay their rent. There are 10 
people sleeping on their friend's couch.
    We only see the folks who are absolutely homeless. But for 
so many people, the rent is too damn high. And it is a problem 
that we face in a number of big cities, but particularly here 
in Los Angeles, and some of it relates to relatively unique 
factors here.
    One is we are the biggest city in the world without a 
grade-separated rail system. So anytime you try to build 
something, the first reaction is not, that person is going to 
be with me on the train. No. It's, that person is going to be 
in a car in front of me on the freeway.
    We have NIMBYs (Not in my Backyard) who won't let you build 
or people who think that their property values will go down 
unless the people who live near them are richer than they are.
    You have the fiscalization of land-use planning, where 
every city is told, if you can attract an auto dealer, you get 
more money, and it costs you almost nothing. If you accommodate 
housing on that same property, you get no extra money for your 
City budget because the property tax goes elsewhere, and it is 
going to cost you some money for police and fire.
    But what I want to focus on here is impact fees. You want 
to build an apartment, and we need money to run the government. 
We should tax people based on their ability to pay. We have 
something that does that. It is called the State income tax. 
Instead, in part, we are taxing people on their ability to 
build, and those costs are then passed through to tenants.
    Ms. Miller, the LA Times had a headline stating that tne 
reason housing is so expensive in California, is that counties 
and cities charge developer fees. Local impact fees impact 
whether a project gets built. And if the law of supply and 
demand, one of the few laws Congress cannot repeal, is 
operative, if we can get more supply, that will influence not 
only the people who live in that new unit, but it will bring 
the supply and demand cost down.
    So what has LA done to mitigate impact fees as a barrier to 
development, particularly the development of affordable 
housing?
    Ms. Miller. Yes. Thank you for your question.
    I will start by saying the City of LA is committed to 
removing regulatory barriers to building housing at a cheaper 
rate and keeping costs low, particularly so they don't get 
passed on to tenants. I can talk about three areas in which we 
are working to streamline the development of new housing here 
in the City of LA.
    The first thing I will start with is the Mayor's Executive 
Directive 13. This is a streamline measure that puts the 
building for any affordable housing project essentially at the 
top of the line. And its aim is to--
    Mr. Sherman. Let me interrupt. I know you are talking about 
streamlining things. If somebody wants to build an apartment 
unit in the San Fernando Valley, how much of a fee is imposed 
per unit for them to be allowed to build that unit? What is the 
impact fee?
    Ms. Miller. Sir, I can get that information to you in more 
detail in terms of the exact breakdown of what the fees are. 
What I can tell you is that through the streamlining measures--
    Mr. Sherman. And I do want to comment--I rarely do this to 
somebody--it is not that these fees will be passed on to the 
consumer. It is that the building won't be built, and then 
everybody will pay a higher rent because the supply of units 
will be down while the demand is still up. So, will you try to 
tell us what this fee is?
    [Disturbance in hearing room.]
    Ms. Miller. Certainly. We can have our chief housing 
officer provide some more detailed information.
    Chairwoman Waters. Please, please, please refrain from 
interrupting the questions and the responses.
    Ms. Miller. What I can say is that there is a fee which we 
are championing in that because it promotes equitable building, 
and that is our Affordable Housing Linkage Fee.
    So there is an Affordable Housing Linkage Fee, which 
ensures the private market builds equitably. It gives 
multifamily developers a choice. They can either include low-
income units in their projects, or they can pay a fee into the 
Affordable Housing Trust Fund, which is used to capitalize 
further and create more housing.
    Chairwoman Waters. Thank you very much.
    The Chair now recognizes Representative Judy Chu of the 
27th District of California for 5 minutes for questions.
    Ms. Chu. Thank you, Chairwoman Waters, for holding this 
very, very important hearing and also for your incredible 
leadership with your very important bill to combat 
homelessness.
    I would like to address a question to Ms. Lares. In Los 
Angeles County, we have housed an unprecedented number of the 
homeless, but we have also still seen an increase in the number 
of people experiencing homelessness in LA County, which rose 12 
percent last year.
    In my area of the San Gabriel Valley, homelessness rates 
rose even faster. But I do have some positive news about one 
City in my district, which is the City of Pasadena, which saw a 
20-percent decrease in its homeless count this year.
    And they attribute much of this progress to the success of 
permanent supportive housing, and they say that it provides 
stable housing to formerly homeless individuals and families 
and offers services like employment training and healthcare 
onsite. And the model can really work, as they have a near 100-
percent retention rate amongst its residents.
    And of course, we have such incredible nonprofits, like 
Union Station Services for the homeless, which provide so many 
supportive services for the homeless.
    So, Ms. Lares, you talked about permanent supportive 
housing. Why is this important, and how does it play a major 
role in combatting homelessness, and what could the Federal 
Government do to increase it?
    Ms. Lares. You are exactly correct. The City of Pasadena 
has used its Section 8 Housing Choice Voucher programs to 
project-based housing developments that provide permanent 
supportive housing just as you described it.
    They have used every possible voucher available. My 
understanding is that they are reaching the caps. All of the 
housing authorities are allowed to project-base 20 percent of 
their vouchers and, very recently, an additional 10 percent 
under HOTMA for housing homeless individuals.
    So one big benefit or one big ask that the housing 
authorities would have is to increase the number of vouchers 
and also increase the caps that go along with it as well. That 
would certainly help all of our communities across the country.
    Ms. Chu. Thank you for that.
    Senator Murray, I would like to talk to you about foster 
youth who are at heightened risk of homelessness and how the 
Federal Government can better serve them. In fact, I sit on the 
Ways and Means Committee. I am working on Family Support, which 
has jurisdiction over foster youth, and I am a member of the 
Congressional Caucus on Foster Youth.
    And in a recent survey from the organization, Voices of 
Youth Count, 29 percent of 13- to 25-year-olds have experienced 
homelessness, and they reported spending time in the child 
welfare system.
    In your experience providing services to individuals and 
families at the Weingart Center, how can the Federal Government 
improve support for foster youth so that they don't experience 
homelessness?
    Mr. Murray. Again, once they have gotten to us, they are 
already experiencing homelessness. But I think one of the 
things we can do is fund more specific things directed toward 
that age group. Both the County and LAHSA have specific 
transitional age youth programs.
    In a previous life, as you may know, foster children and 
foster care was one of my big projects. But I think it even 
gets worse if you talk about transitional age youths who are 
also LGBTQ because they are particularly vulnerable out on the 
street.
    So just specific funding and specific mental health funding 
for their specific issues might, I think, help the problem. But 
we do have to bolster up--as we are talking about public policy 
matters, which are not necessarily dealing with the homeless, 
but dealing with the path to homelessness, you really need to 
invest some money on, where do aged-out youth in foster care 
go?
    The overwhelming majority of them--and I don't have the 
specifics at my fingertips--go either into the homeless system 
or the criminal justice system. And I think to the extent that 
when we have put a child in foster care--and again, I spent 
some time in dependency court in my early career--we become 
their parent, and we are just doing a horrible job of it based 
upon the numbers at foster care.
    So I think we ought to put some money into when they are 
getting ready to age out, some transitional money for them so 
that they don't experience homelessness.
    Ms. Chu. Thank you. I yield back.
    Chairwoman Waters. Thank you very much.
    The Chair now recognizes Representative Nanette Barragan of 
the 44th District of California for 5 minutes for questions.
    Ms. Barragan. Thank you, Madam Chairwoman. Thank you for 
your leadership in holding this hearing, and for your bill, the 
Ending Homelessness Act of 2019.
    I often hear when I am in my congressional district and at 
town halls, what is going on, what is happening, how come this 
is getting worse, and why is it that the bills, the 
propositions that we have passed and taxing ourselves, why does 
it feel like it is not getting any better?
    It is a challenging question. And we have heard a little 
bit today about the progress that is being made.
    Maybe one of you can talk a little bit about what the 
chairwoman's bill will do. What kind of an impact will having 
her bill pass, in helping address the homeless crisis that the 
City and the County of Los Angeles is facing?
    Ms. Miller, do you want to take this?
    Ms. Miller. Sure, thank you.
    What I will start by saying is that we have spent the last 
few years building a system to respond to the crisis that is on 
the streets, and we are scaling that system up as we speak.
    What that system has told us is that there are 31,000 
people in the system right now who have been engaged by an 
outreach worker. So more than likely when your constituent sees 
someone on the streets in an encampment, more than likely they 
have been touched by the system. There is some outreach worker 
somewhere providing services to them.
    They have had their needs assessed with our standardized 
assessment tool. They have gathered their documents needed to 
get into housing, whether it is income verification, a driver's 
license, an ID. They are ready to go.
    The problem is this bottleneck of not having enough housing 
for them to exit the system to. What we find is similar in our 
shelter system. There are people ready to go. They have part-
time jobs. They are engaged in services. They have the mental 
health support that they need. But there is no permanent 
destination for them to land. There is no affordable housing 
resource for them.
    Ms. Chu. Ms. Miller, if you could just address what the 
chairwoman's bill would do, that influx of $13 billion, how 
would that help what you are trying to do?
    Ms. Miller. Thank you so much.
    I would say the biggest gap that we have right now is a 
rental subsidy, is the ability to connect someone to an 
operating subsidy that they can then apply to a unit in the 
community and get them into housing. And I think the 
chairwoman's bill with the set-aside of resources for 
affordable housing would be critical to getting a throughput in 
our system that we are lacking right now.
    Ms. Chu. Thank you.
    One of the things that we haven't mentioned is how 
Chairwoman Waters has been leading not just on this issue, but 
on the fight--on the cuts that have been proposed.
    This President's Fiscal Year 2020 budget requested to 
actually dramatically cut housing benefits that help families 
who are low-income seniors, who have people with disabilities, 
families with children, and veterans. Overall, the 
Administration's proposed cut to HUD programs has been by an 
astonishing $9.6 billion. That would be devastating.
    And so that is why it is so critically important we have 
hearings like this and that we have everybody make sure that 
they are participating and that they are engaged so that we can 
help fight back against these proposed cuts.
    We hear proposal after proposal that will be cut back, that 
would only negatively impact all of the work that people on 
this panel are doing and will do.
    Ms. King-Viehland, would you maybe like to comment on what 
would happen, how the problem would get worse if we had this 
actual cut of the $9.6 billion to HUD programs?
    Ms. King-Viehland. We have talked about the fact that we 
have more than 10,000 units of permanent supportive housing in 
the pipeline. And we have talked about how critically important 
those units are.
    But without vouchers and rental subsidies, those units 
don't come on. So it goes beyond sort of discussions of impact 
fees and other costs related to rising housing costs. If we 
don't have the vouchers and the rental subsidies to be able to 
put those people into the units, those projects don't get 
built.
    Ms. Chu. Thank you.
    Ms. Lares, you have done fabulous work. I represent the 
community of Jordan Downs. Can you give us an update on where 
we are on that, and when are we going to see people moving into 
that facility?
    Ms. Lares. Sure, absolutely. And we would welcome you to 
join us on move-in day.
    We have made a lot of progress with Jordan Downs, with the 
new Jordan Downs and the new housing there. We will be ready to 
move our first families into new units this fall, September-
October, right around the corner. So, I am a little bit ahead 
of the game because we intended to provide an invitation to 
help move in our families.
    Completing phase one and phase two of Jordan Downs and 
moving into other phases, as you are well-aware, we are 
replacing one-for-one unit and exceeding that amount. 
Currently, there are some 104 units at Jordan Downs. The new 
Jordan Downs will have 1,400 units.
    Ms. Chu. Great, thank you.
    I will yield back my time. I will leave it for the next 
round.
    Chairwoman Waters. Thank you very much.
    The Chair now recognizes Representative Jimmy Gomez of the 
34th District of California for 5 minutes for questions.
    Mr. Gomez. Madam Chairwoman, thank you so much for hosting 
this important hearing.
    I got elected to Congress in July of 2017. That is when I 
was sworn in. It was one of the first elections after the 
Presidential. And I represent downtown, everything from Hancock 
Park--very wealthy neighborhoods--to Skid Row, to Boyle 
Heights, an incorporated City, Torrance, to Eagle Rock, and we 
see a variety of issues.
    One of these things that I tried to work on since I was a 
student at UCLA was this issue of housing. And I recognized 
early on that we had no housing policy in the State of 
California, that the housing policy was sprawl: Build out as 
far as the eye can see so that you can reduce the rents and the 
pressure in the big cities.
    How do I know that? Because my family, when we were living 
in Orange County, got forced out. The house that we lived in 
was bulldozed and turned into a Taco Bell. Imagine that, a Taco 
Bell.
    So my parents went out to Riverside, found a house there, 
and bought it. It was relatively affordable. But that release 
valve no longer really exists.
    Out in Riverside and San Bernardino Counties, they are 
having higher rent increases percentagewise than here in the 
City and LA County. S,o it doesn't exist.
    And this is a problem, as everybody knows, that was years 
in the making. Skid Row didn't come out of nowhere. It was a 
strategic strategy by the City of LA and the County to push and 
force people who were homeless into a specific area and provide 
the resources, right?
    So we act like this thing came out of nowhere, you know? 
But it is something that decision-makers, over the years, have 
created. Like it or not, everybody is responsible.
    So what are we going to do now, is the question. There is 
no other State that has this kind of issue. I asked a friend of 
mine who is the Director of Housing and Community Development 
for the Governor--previously Governor Brown and now Gavin 
Newsom--he was at HUD. He said there is no other place, no 
other State that has this type of problem.
    So, I agree. We have a lot of problems, and we have to look 
at a multimodal approach. I agree with that.
    But we have to start thinking outside the box. And maybe it 
is time to break the wheel when it comes to this merry-go-round 
of homelessness and housing that keeps going over and over and 
over because it seems that we are losing ground.
    One of the issues that I want--we heard some things. Mr. 
Ansell, you mentioned that the County provides the services and 
some rental assistance and that the City--I take it that you 
meant the City of LA--is responsible for capital development. 
One of the things I want to know is, what are the other cities 
in LA County doing when it comes to providing more units? 
Because I know that not everybody is carrying their fair share.
    Mr. Ansell. Thank you, Congressman. If I could just clarify 
my prior comment?
    Both the City of Los Angeles and the County of Los Angeles 
are investing very heavily both locally-generated and State 
funding for the development of permanent supportive housing. My 
specific comment previously was with respect to Proposition HHH 
and other Los Angeles City funding for permanent supportive 
housing, how is the County collaborating? And in that regard, 
yes, we are providing the supportive services that go along 
with those new units.
    With respect to the other 87 Cities in the County, we have 
seen that Cities have a central role to play in this Countywide 
effort and have reached out in an unprecedented way to Cities 
across the County to engage their participation. The County has 
funded 40 Cities in the County to develop City-specific 
homelessness plans and has allocated a portion of Measure H 
funding to those Cities to support implementation of those 
homelessness plans.
    The single biggest focus of those City homelessness plans 
and of the County funding provided by the Cities is to support 
Cities' utilization of their land use authority in a way that 
will result in the production of additional permanent 
supportive housing, affordable housing, and other interim 
housing.
    That can include, for example, feasibility studies of 
individual parcels, government-owned parcels, for example, that 
could be used for housing, or consultant assistants to help 
small cities modify land use ordinances, for example, relative 
to motel conversion or permanent supportive housing or 
accessory dwelling units.
    So what I would say is that, on the one hand, we are 
engaged with smaller Cities throughout the County in an 
unprecedented way and that there is an unprecedented level of 
interest among many cities in responding to this challenge and 
constructively addressing the homeless crisis, including 
through the increasing housing. And on the other hand, we have 
a very long way to go in ensuring that Cities throughout the 
County exercise their land use authority in a way that 
maximizes the availability of housing.
    Mr. Gomez. My time is up, but that is a good point, because 
I know for a fact that the State of California has given back 
to a lot of cities, former State property, Caltrans property, 
that was supposed to be used for housing, and they are not 
using it. And that is a big problem.
    With that, I yield back.
    Chairwoman Waters. Thank you very much.
    The Chair now recognizes Representative Grace Napolitano 
from the 32nd District of California for 5 minutes for 
questions.
    Mrs. Napolitano. Thank you, Madam Chairwoman, and thank you 
for all of your hard work, and I thank the rest of the 
committee as well.
    Ms. King-Viehland, we know that there is a great amount of 
homelessness in Los Angeles County and that you have recently 
changed strategy to prevent it, addressing it more 
holistically, and ending generational poverty.
    But do you work with the Cities and do you work with 
agencies, all of them? Everybody is doing their bit, but does 
anybody get together and talk as a group and say, okay, let's 
start a program?
    Because I am Chair of the Mental Health Caucus in 
Washington, and mental health is the third-largest reason for 
homelessness. We must include it in our program so that it can 
take care of the problem before it gets worse.
    The Cities sometimes start a preventive program. NOAH is 
beginning to look at uniting to find out how can they keep 
people in homes if they have a health emergency, an accident, 
all the things that Kevin talked about. They can pay for 1 or 2 
months' rent so that the family can stay in the home and not 
become homeless. But that is an innovative program that needs 
help and should be able to make a difference in keeping people 
in homes.
    Also, attractive places for the homeless to go are the 
riverbeds, near hospitals. But we must also talk to the 
railroad and Caltrans and others to find out what properties 
they have in excess that can be used to build homeless--all 
right, near railroads, noisy; near freeways, pollution maybe--
but at least they would have transitional housing. What can we 
do? What are you doing to accomplish that?
    Ms. King-Viehland. Thank you for the question.
    I think to your original question, yes, there are a great 
deal of efforts that are happening from a regional perspective. 
And Measures H and HHH have really served at helping to build 
an infrastructure.
    So we are working in partnership with our partners at the 
Homeless Initiative. At the County, we work with LAHSA, we work 
with HACLA and others, and we are implementing programs in a 
much more systemic and seamless way. And that, I think, has 
been helpful.
    As I mentioned earlier, with something like our Homeless 
Incentive Program, for example--
    Mrs. Napolitano. But is that in LA City alone, or is it 
throughout the County?
    Ms. King-Viehland. No. It is Countywide. So, that is sort 
of the benefit. There are 18 other housing authorities, for 
example, that are operating within the Southern California 
region.
    Mrs. Napolitano. Oh, I am sure there are more than 18.
    Ms. King-Viehland. And one of the things that is great is 
that we are working with them. So our Homeless Incentive 
Program, it looks the same for a client, whether they come in 
HACLA's door or whether they come in our door because the idea 
is the program is seamless. It runs the same at HACLA as it 
runs for us. So the idea is to create a regional approach to 
attacking issues.
    Much of the housing development we are doing, we have a lot 
of those projects in partnership with the City of LA for the 
work that we are doing, as well as the City of Pasadena, the 
City of Glendale, and other Cities as well. So, we are taking a 
Countywide approach to addressing the issues and breaking down 
those silos.
    Mrs. Napolitano. But do you include communications to the 
Cities of what you are doing? Because I know my Cities, some of 
them know, and others don't. And I need to know what kind of 
information is going to the Cities to make them aware because 
they also have the homeless transitioning to them.
    Mr. Ansell. Yes. Congresswoman, through the Homeless 
Initiative, we have very actively engaged Cities throughout the 
region. We have convened two homeless summits, the first ever 
in the history of all of the Cities.
    Mrs. Napolitano. All right. But how about--
    Mr. Ansell. And we have a designated liaison for each of 
the Cities. And we invited all of the Cities in the County to 
develop their own homelessness plans with funding from the 
County.
    Mrs. Napolitano. Do you work with the COGs, the Council of 
Governments?
    Mr. Ansell. Yes, we do. We work with the Council of 
Government. In fact, we provide ongoing funding.
    Mrs. Napolitano. Does the money flow to the Cities?
    Mr. Ansell. We provide funding to the COGs to coordinate 
the efforts in their Cities. And then as I mentioned, we have 
approved funding to those Cities that developed homelessness 
plans to support implementation of those plans.
    Mrs. Napolitano. I would like to know more about those 
because I have not heard yet. There is some information coming 
back to me, but not necessarily with the COGs or with some of 
the Cities.
    So it is important that we get the ability to understand 
that they are part of it, that they are--maybe their 
representative doesn't attend meetings. I don't know. But we 
need to make sure because the homeless situation is getting 
critical, and it is worse in the San Gabriel Valley.
    Madam Chairwoman, I yield back.
    Chairwoman Waters. Thank you very much.
    First, I would like to thank our first panel of witnesses 
for their testimony today.
    We will now pause to set up our second panel for today's 
hearing. Thank you so very much for coming, and for your 
testimony.
    While we are awaiting our second panel, I would like you to 
know that I did ask our elected officials to stand.
    Mayor Robert Pullen-Miles represents Lawndale, California.
    Mayor Patrick Furey represents Torrance, California.
    Mr. Jimmy Gow is here, who is a Commissioner in Torrance, 
California, working with homelessness issues also.
    I am told that we have a number of ministers in the 
audience and that many of the ministers are involved with 
homeless ministries in the church, where they are taking 
clothing and food and toiletries down to Skid Row every day.
    Would all of the ministers please stand, and Shane Scott 
who is representing Macedonia Church?
    We also have a number of veterans in the audience. Will all 
of those who are veterans or representing veterans 
organizations--I see in the back of the room we do have 
representatives from New Directions. Please stand, Larry, in 
the back of the room. Raise your hand.
    Thank you all, very much.
    Would the second panel please come forward?
    [brief recess]
    Chairwoman Waters. The committee will return to order. 
Please take your seats. We are going to get started with our 
second panel. Thank you very much.
    Our second panel includes: Tim Watkins, president and chief 
executive officer, Watts Labor Community Action Committee; Joe 
Horiye, Western Region Program vice president, Local 
Initiatives Support Corporation; Becky Dennison, executive 
director, Venice Community Housing; Anthony Haynes, Speak Up! 
advocate, Corporation for Supportive Housing; Erika Hartman, 
chief program officer, Downtown Women's Center; Chancela Al-
Mansour, executive director of the Housing Rights Center; Alma 
Vizcaino, speaker, Downtown Women's Center, on behalf of 
Domestic Violence Homeless Services Coalition; and Dora Leong 
Gallo, president and chief executive officer, a Community of 
Friends.
    Without objection, your written statements will be made a 
part of the record.
    And each of you will have 5 minutes to summarize your 
testimony. I will give you a signal by tapping the gavel 
lightly when 1 minute remains. At that time, I would ask you to 
wrap up your testimony so that we can be respectful of both the 
witnesses' and the committee members' time.
    Mr. Watkins, you are now recognized for 5 minutes to 
present your oral testimony.

    STATEMENT OF TIM WATKINS, PRESIDENT AND CHIEF EXECUTIVE 
        OFFICER, WATTS LABOR COMMUNITY ACTION COMMITTEE

    Mr. Watkins. Thank you. And I won't spend too much time 
saying what an honor it is to be here, but I really appreciate 
your work and always have on all fronts.
    Having been here for 66 years, always being a boy of Watts, 
born and raised in Watts, I have been blessed to be around the 
Watts Labor Community Action Committee (WLCAC) its entire 
lifetime, as my father was the founder 54 years ago, and you 
get to see a lot in 54 years.
    But as an organization that has consistently, constantly, 
and without interruption provided service and helped support 
the underdog in society, I would say that today, maybe I am 
here representing the ``brothers on the ground floor.''
    I don't know if you have ever heard that term, but in 
Watts, there is a network of people who live under people's 
houses that have raised foundations. They live there with the 
cooperation of the homeowner or the renter.
    They bump around at night. No one gets alarmed. But 
basically, they are allowed to subsist in the foundation space 
of those homes.
    Over 54 years, we have seen Mayor Yorty, Mayor Bradley, 
Mayor Riordan, Mayor Hahn, Mayor Villaraigosa, and now, Mayor 
Garcetti. I won't bother to talk about the broken promises of 
the past because maybe this time we are going to see a promise 
kept. But so far, so far what we have seen over 54 years is a 
trail of broken promises.
    WLCAC was around when across the country, mental health 
institutions were being shut down, and we saw the earliest 
vestiges of homelessness in Watts when people started showing 
up with nowhere to go. We started serving homeless populations 
well before there was a LAHSA, before there was a City or a 
County response to homelessness in South Central Los Angeles, 
and we have been serving ever since.
    I think it is important to recognize that although we made 
those powerful steps early on, LAHSA has been at the forefront 
of providing, I guess you would say, the mainstream of service 
or the funding, the support and the services that homeless 
people need. But it is just not enough.
    We are all here, maybe even some of you--I remember some 
recent Congress Members who were just a check or two away from 
homelessness themselves. And I think it is important for you to 
realize that in this audience, lots of us are just a couple of 
checks away from being homeless, and that perhaps, along with 
what we do about homelessness, we think about the problem of 
poor public policy versus poverty and what that really means. 
Because we keep talking about poverty as though that is the 
problem, when poverty is but a symptom of poor public policy 
and what drives us into these conditions that are not easy to 
sustain.
    Yet, we find ourselves with less in self-sufficiency, 
certainly less in self-determining. And we watch the 
descendants of people who, up until 1865, were able to get what 
they wanted and still do, and here we are hundreds of years 
later still just trying to find what they call that so-called 
level playing field.
    There is no level playing field. The playing field is full 
of empty goldmines, diamond mines, waterholes, oil wells, you 
name it. We look for scraps on the surface and every night get 
disparaged.
    The people in my community get disparaged and treated as if 
they are subhuman because they have the nobility to go through 
our trash. They dig through our trash to find recyclables and 
then line up as if they should be incarcerated by getting 
pennies on the dollar for what their work is worth all night.
    And I think that we have to start looking for, how do we 
prevent the problem in as many ways as we can that are not the 
traditional ways? We will talk, we will talk, and we will talk 
about hundreds of millions and billions of dollars. But it 
takes too long to get the help that people need.
    When you think about public policy versus poverty and how 
this all happened, how much of it is by design? Why does 
someone have to be homeless for a year before they can qualify 
for service? Maybe their condition doesn't allow them to 
survive a year of waiting. How many of our people can stand the 
product of geopolitical gerrymandering in our community?
    Watts is a place that, unfortunately, is 15 miles away from 
its base. It is very difficult to get the kind of 
representation that we need that is Watts-specific.
    What are the impediments? Certainly, we have persecution, 
human blight, the problem of transitional housing that was long 
ago constructed to help homeless people that has been torn down 
only to be replaced by transitional housing.
    I know I have to go. We have a lot of resources, and I 
would like to talk about that in the follow-up, if possible.
    Chairwoman Waters. Thank you very much.
    Mr. Horiye, you are now recognized for 5 minutes to present 
your oral testimony.

STATEMENT OF JOE HORIYE, WESTERN REGION PROGRAM VICE PRESIDENT, 
             LOCAL INITIATIVES SUPPORT CORPORATION

    Mr. Horiye. Thank you.
    Chairwoman Waters and members of the committee, my name is 
Joe Horiye. I am the program vice president for the Local 
Initiatives Support Corporation (LISC), established in 1979. 
LISC is a national nonprofit dedicated to helping community 
residents transform disinvested neighborhoods into healthy and 
sustainable communities of choice and opportunity.
    We provide local community development organizations with 
loans, grants, and equity investments, as well as technical and 
management assistance. We have a national footprint with local 
offices in 35 cities and a rural program. We invest 
approximately $1.4 billion each year in these communities.
    Our doors opened in LA in 1987. We have developed more than 
11,000 units of affordable housing in the region with community 
partners. Nearly $34 million of investments for affordable 
housing and community development projects have been made in 
California's 43rd District alone.
    I oversee the work of our LA office, but I wish to 
acknowledge Tunua Thrash-Ntuk, who is the Executive Director of 
LISC and a native Angeleno. Our LA team is deeply embedded in 
community-based efforts to provide assistance to those 
experiencing homelessness and/or in need of affordable housing.
    I have seen firsthand the challenges of opportunities that 
exist providing affordable housing to people experiencing 
homelessness and how nonprofit organizations and others can 
improve their lives. I would like to focus my time on what is 
needed to address this issue.
    First, this country has to be committed. If we want to end 
homelessness, these efforts must be supported through 
sufficient funding resources.
    For example, our nation's commitment to reducing chronic 
and veteran homelessness has resulted in substantial declines. 
This progress is mainly due to the Federal Government targeting 
resources for the work, HUD's Continuum of Care. Homelessness 
assistance programs provide the main Federal resources and 
incentivize local CoCs to prioritize housing-first approaches.
    LISC supports full funding for HUD's CoC's Federal 
assistance programs and was pleased to support Chairwoman 
Waters' Ending Homelessness Act of 2019. This bill would 
increase McKinney-Vento Homeless Assistance Grant resources for 
new permanent supportive housing, authorize additional 
resources for special purpose Housing Choice Vouchers, increase 
National Housing Trust Fund funding, authorize funding for 
outreach to homeless people, and better integrate affordable 
housing and healthcare activity. This bill recognizes the 
resources the Federal Government has to provide if our country 
is going to continue to make advances in reducing homelessness.
    LISC LA has worked since its inception to provide 
assistance to homeless service and affordable housing 
providers. We provide grants to build organizational capacity, 
and one of the most important Federal capacity-building tools 
we utilize for this work is HUD's Section 4 Capacity Building 
Program. Section 4 awards help nonprofit and housing community 
development organizations further their affordable housing 
goals.
    One example, People Assisting The Homeless, PATH Ventures, 
used HUD Section 4 support to develop West Carson Villas. This 
development consists of 110 units, 55 which are reserved for 
formerly homeless residents. LISC also provides financing for 
affordable housing development, and we typically use the Low-
Income Housing Tax Credit (LIHTC) equity.
    The housing credit is the nation's most important 
development finance subsidy source for affordable rental 
housing and works by providing equity for such housing in 
exchange for Federal tax credits. Our subsidiary, the National 
Equity Fund, NEF, is one of the largest nonprofit syndicators 
of LIHTC and a national expert in using housing credits to 
finance supportive housing for people experiencing 
homelessness.
    LISC also uses other Federal resources to support this 
work, including the Capital Magnet Fund (CMF). CMF is a 
competitive affordable housing award administered by the 
Treasury Department, which can be used flexibly by mission-
driven lenders such as LISC, and nonprofit developers for 
affordable rental housing for very poor households.
    An example of the impact of CMF and the housing credit is 
our recent support for LA Family Housing's Irmas Family Campus. 
Once a homeless shelter operating as a former motel, it 
completed its transformation into a campus that offers health, 
housing, and other services in San Fernando Valley.
    The campus includes the Fiesta Apartments, 49 units of 
permanent supportive housing targeting chronically homeless 
single adults. LISC NEF invested nearly $13.6 million of 
housing tax credit equity in a $20.7 million project, and LISC 
used its CMF award to provide a reduced interest permanent loan 
to close the financing gap on the apartments.
    LISC LA's history of supporting affordable housing projects 
for those experiencing homelessness has shown us that progress 
can be made when resources are made available to address need. 
We urge Congress to adequately fund and support Federal housing 
assistance and tax credit programs which provide stable housing 
for homeless people and to support programs that build the 
capacity of nonprofit organizations serving these communities.
    Thank you for the opportunity to testify. And I look 
forward to working with you and your staff on ways to end the 
homelessness crisis here in LA.
    Thank you.
    Chairwoman Waters. Thank you very much.
    And now, we will hear from Ms. Dennison. You are now 
recognized for 5 minutes to present your oral testimony.

    STATEMENT OF BECKY DENNISON, EXECUTIVE DIRECTOR, VENICE 
                       COMMUNITY HOUSING

    Ms. Dennison. Thank you.
    Good morning to everyone. I am Becky Dennison with Venice 
Community Housing. We own and operate affordable and supportive 
housing focused on ensuring inclusive communities on LA's west 
side.
    For over 30 years, we have been providing housing and other 
support to those most in need, and we are currently building 
new supportive housing in Venice, which is home to about 1,000 
unhoused residents. We are also active in community organizing 
and advocacy efforts that preserve existing affordable housing 
and promote the rights of tenants and unhoused residents.
    We simply, as everyone said, need vastly more resources to 
produce extremely low-income and supportive housing. So, 
affordability matters in production. We can't just produce and 
expect the results to trickle down.
    The Federal budget for affordable housing was cut almost 80 
percent in the early 1980s and has never been restored. And as 
was mentioned, we continue to see cuts chipping away at it.
    And locally, production is nowhere near the documented 
need. In the last Housing Element, the City projected to 
produce 75 percent of its overall housing need, but only 17 
percent of the extremely low-income housing need. So with the 
largest production gaps at the lowest income levels and 
overproducing luxury housing, homelessness continues at crisis 
levels in LA.
    LA has also underproduced supportive housing, creating just 
a few hundred units per year for 20 years. And the ballot 
initiatives that people have discussed are incredibly important 
and will do good work, but are a drop in the bucket in the 
overall need.
    We need the City and the County and the State to create 
permanent and sustained resources, and we need the Federal 
Government to supplement those resources. Most specifically, we 
need to increase the rental subsidy, as people have said.
    Right now, we are making decisions in a scarcity 
environment. We have to balance the need for new supportive 
housing, affordable housing, public housing, and tenant-based 
Housing Choice Vouchers within this limited pool of subsidy, 
and there is just nowhere near enough to cover even a portion 
of all of those needs.
    The Federal Government must also help us address the issue 
of underproduction of extremely low-income housing, because 
while the Tax Credit Program is incredibly important, it is 
just not designed to produce extremely low-income housing, and 
therefore, that is where we see our biggest gap.
    Beyond housing production, we must put more effort into the 
prevention of homelessness, and the preservation of all 
affordable rent stabilized and other subsidized rental housing 
must be prioritized. And while these are largely issues at the 
local and State level and our local government and State 
government must make preservation more of a priority, we also 
do need targeted Federal investment to make this a 
comprehensive effort.
    Prevention of homelessness also requires increased tenant 
protections and proactive enforcement of those protections. 
Tenants far too regularly face unjust and illegal eviction and 
other forced displacement.
    And again, some of these challenges and solutions are 
focused on State and local issues. And our State Government has 
some important policies pending, but the Federal Government can 
help ensure more proactive enforcement of public and subsidized 
housing tenant protections, rent-to-prevent-eviction programs 
and funding, and then the prevention of any policy that would 
produce displacement, such as the proposed mixed-status policy 
that was also discussed.
    Government entities must also eliminate the unacceptable 
overrepresentation of Black people experiencing homelessness 
that has been persistent in LA for far too long. Los Angeles 
has studied this recently and has a report and recommendations 
that Mr. Lynn discussed that really look at the long history of 
institutional racism, and further exploration of that from this 
committee is recommended.
    And lastly, LA must end the criminalization of 
homelessness. This is an area where LA has been uniquely 
horrible in its efforts.
    We have the largest unsheltered homeless population in the 
country, and yet, without creating any significant housing 
alternatives, LA has invested incredible financial and 
political resources and policies explicitly intended to 
criminalize homelessness and other initiatives that result in 
harassment and forced displacement among housed residents.
    These practices exacerbate homelessness, lengthen the time 
people remain homeless, and discriminate against people for 
their current unhoused status. This simply must end and be 
replaced with health-based, street-based interventions until LA 
provides housing for all in need.
    So, in closing, we know that LA, and California as a whole, 
must enact substantial new policies and funding streams that 
focus on production at the lowest income levels and homeless 
prevention, as well as eliminate harmful policies.
    But LA and all regional efforts cannot succeed without more 
investment at the Federal level. H.R. 1856 reflects a 
significant step forward, and additional efforts will be needed 
to solve this crisis.
    Thank you.
    [The prepared statement of Ms. Dennison can be found on 
page 68 of the appendix.]
    Chairwoman Waters. Thank you, Ms. Dennison.
    Mr. Haynes, you are now recognized for 5 minutes to present 
your oral testimony.

 STATEMENT OF ANTHONY HAYNES, SPEAK UP! ADVOCATE, CORPORATION 
                     FOR SUPPORTIVE HOUSING

    Mr. Haynes. Good afternoon. My name is Anthony Haynes, and 
I am a Speak Up! Advocate for the Corporation for Supportive 
Housing (CSH).
    I grew up in an average middle-class community with six 
siblings and a mother and a father and a home. And my mother 
and father used to shelter me from what was around the corner 
until one day I found out what was around the corner, and I 
became an alcoholic. I became a functioning alcoholic.
    Over the years, my disease got worse, but I was still able 
to find a job, and keep an apartment until I could no longer 
work due to suffering from mental health issues.
    After 10 years of homelessness, I ended up on Skid Row, and 
I went to jail for 1 year, exactly 1 year, for possession of 
marijuana. And when I got out of jail, I knew I needed 
something different. I knew I wanted to do something different 
with my life.
    So with that year clean from alcohol and drugs, I got on a 
wait list. And it took a long time for me to get permanent 
supportive housing. But when I finally got in, it made a big 
difference in my life.
    Supportive housing is very important, not only just housing 
a person, but with the wraparound services, with the case 
manager onsite, the therapist, the psychiatrist right at my 
disposal.
    It took me a long time to find my worth, you know? They had 
so many groups to offer, art group, journal group. So I ended 
up doing a knitting group. And coming from the streets, I said, 
``I am not going to sit in a circle and share my feelings.'' 
So, I took a knitting group for exactly 1 year, and in the 
group, they sat and watched Oprah and knitted.
    So after 1 year, I never learned to knit, but I sat with a 
group of women who helped me regain who I am. They gave me so 
much perspective on life. They showed me a different way that I 
can go and to grow.
    So it was so important for me to have those groups. And 
then saying that the housing is important, but more important 
is the wraparound services that come with it, the people who 
are going to be there for when you need them.
    Giving them housing is important, but now that you are 
housed, you have to learn to live with yourself. And how do I 
do that sober? It was a big challenge. Depression sets in.
    But long story short, I continued to work on myself. I 
continued to take advantage of what was offered to me, the help 
provided within the supportive system.
    And with that, they watched me grow. And I am now a peer 
advocate manager for the Skid Row Housing Trust. I moved into 
one of their buildings, and now I get to be an advocate for the 
future residents and help them understand what it is going to 
feel like once you move into your own apartment by yourself. 
You are going to feel lonely.
    And a lot of us resort back to what we used to know, our 
old friends and the drugs and alcohol. So now, I show them a 
way that you don't have to go back. We are going to build a new 
bridge, we are going to build new friends, and we are going to 
go a new way.
    So now, I help the potential residents navigate all of the 
resources that are at their disposal within the community. And 
it is so important that they know that it is out there for 
them.
    A lot of stuff is offered to them, but half the time, it is 
stuff they don't need or can't use. Everything offered is not 
for every individual.
    So, I just want to thank you for coming out and listening 
to what we have to say.
    Chairwoman Waters. And I want to thank you. Thank you very 
much, Mr. Haynes.
    Ms. Hartman, you are now recognized for 5 minutes to 
present your testimony.

  STATEMENT OF ERIKA HARTMAN, CHIEF PROGRAM OFFICER, DOWNTOWN 
                         WOMEN'S CENTER

    Ms. Hartman. Good afternoon, Madam Chairwoman, members of 
the committee, and members of the California delegation. My 
name is Erika Hartman, and I am the chief program officer of 
the Downtown Women's Center.
    For over 40 years, the Downtown Women's Center has been 
providing housing and vital services to women in the Skid Row 
area of Los Angeles, and today serves over 4,000 women per 
year.
    In recent years, we have seen homelessness in Los Angeles 
rise to unprecedented levels, and in the last year, the number 
of women grew to 18,337 individual women. Homelessness among 
women is increasing nationally as well, and on any given night, 
216,211 women are experiencing homelessness in this country. 
Women comprise 39 percent of the individuals experiencing 
homelessness, and 49 percent of those are unaccompanied women.
    The Downtown Women's Center exists because we recognize 
that women are a unique subpopulation experiencing homelessness 
with corresponding unique needs. For this reason, we continue 
to advocate for HUD to officially recognize women as a unique 
subpopulation, specifically unaccompanied women.
    As an example of the unique vulnerabilities faced by 
unaccompanied women, they are 4 times more likely to be 
chronically homeless and for this reason need resources to 
serve them. The areas of focus should be on increasing data and 
research, targeting services and housing toward women, and 
requiring that gender competency and program evaluation be a 
criterion to receive funding for housing and service provision.
    At the Downtown Women's Center, we serve anyone who 
identifies as female or was an identified female at birth. 
Women experiencing homelessness on Skid Row identify as LGBTQ 
at a rate of 15.4 percent, compared with 3.4 percent of the 
general population. For this reason, we are strong advocates 
for maintaining the Equal Access Rule without changes but would 
otherwise support H.R. 3018.
    Ninety percent of women residing in Skid Row have 
experienced some form of violence during their lifetime, and 
for this reason, we are advocating for H.R. 6545 and for the 
release of additional dollars from the Victims of Crime Act 
Fund.
    As we know, women in the military experience high rates of 
sexual harassment and assault, making them vulnerable to other-
than-honorable discharges and thereby ineligible to receive 
HUD-VASH vouchers. For this reason, we ask for support in 
advancing H.R. 2398.
    Even with the level of risk that we know women face on the 
streets, 64 percent of women experiencing homelessness in Los 
Angeles County are unsheltered. And unsheltered women remain 
without stable housing for an average of 14 to 16 years. And 
because of insufficient shelter in Los Angeles, just 1 in every 
12 is able to access a shelter bed on any given night.
    Women who are unsheltered age close to 20 years faster, and 
between 2014 and 2018 in Los Angeles, the number of deaths 
among homeless women more than doubled. While the life 
expectancy for women is typically longer than for men, for 
homeless women it is shorter. The average age of death for 
women experiencing homelessness is 48. For this reason, it is 
crucial that H.R. 1978 receives the necessary support, and we 
also hope to see more House Members cosponsor H.R. 3272.
    In Los Angeles, economic hardship is the cause of 53 
percent of homelessness. We have seen rents increase by 32 
percent, while income has gone down by 3 percent.
    Income inequity bears especially hard on women, who 
continue to make only 79 cents for each dollar earned by men, 
and women of color are the most significantly impacted.
    There is also vast disproportionality by race of 
individuals experiencing homelessness due to systemic racism. 
The racial inequities of the justice system have caused 
African-American women to be the most significantly impacted by 
histories of incarceration when seeking employment, with an 
unemployment rate of 43.6 percent, almost 10 percent higher 
than any other demographic.
    Women also comprise a significant portion of single-parent 
households. And in the event that HUD moves forward with the 
proposed change to the mixed-status rule, we support H.R. 2763.
    Homelessness is a matter of resources, and for that reason, 
ongoing support of H.R. 3163 is essential to ending 
homelessness. And most importantly, the investment of H.R. 1856 
would significantly increase the likelihood that organizations 
will have the opportunity to get ahead of the curve in meeting 
the needs, ensure focus is maintained on ending the homeless 
crisis, protect our progress, and help us gain more ground 
through mandatory spending.
    Thank you, Chairwoman Waters, for introducing this 
legislation, and I thank the committee for your support of this 
bill.
    [The prepared statement of Ms. Hartman can be found on page 
89 of the appendix.]
    Chairwoman Waters. Thank you very much, Ms. Hartman.
    Ms. Al-Mansour, you are now recognized for 5 minutes to 
present your oral testimony.

 STATEMENT OF CHANCELA AL-MANSOUR, EXECUTIVE DIRECTOR, HOUSING 
                         RIGHTS CENTER

    Ms. Al-Mansour. Good afternoon. Thank you, Madam 
Chairwoman, and thank you, other respective Members of 
Congress, for allowing us this opportunity to speak with you 
today.
    I am Chancela Al-Mansour, the executive director of the 
Housing Rights Center. I am also on the board of the National 
Fair Housing Alliance and the California Reinvestment Coalition 
as well.
    In 1993, I was here, and a similar hearing was held in Los 
Angeles at the Federal Reserve Bank, and Members of Congress 
came here to determine what were the reasons for the civil 
unrest, what was the reason for the lack of income and housing 
and so forth in South Los Angeles.
    And we talked about poverty, we talked about racism, lack 
of access to credit, no banks. We talked about no grocery 
stores, no jobs. And the one thing we didn't really highlight 
was homelessness. Here we are 26 years later, and the main 
issue we are facing right now is homelessness caused by all of 
those things.
    As you have heard, the U.S. Government's history of 
financing and promoting redlining, which was the denial of home 
ownership and home mortgage loans and home improvement loans to 
Black and other racially targeted groups, created racially 
segregated and highly racially concentrated neighborhoods with 
no services. This created the urban blight that depreciated the 
value of Black-owned homes that today have made those 
neighborhoods ripe for gentrification and displacement.
    Everybody complains about LA's traffic, but with new access 
to public transportation and revitalization measures, Boyle 
Heights, Highland Park, Crenshaw District, Chinatown, and other 
parts of South Los Angeles are all experiencing extreme 
displacement of Black and Brown and low-income Asian 
communities.
    And for those fortunate groups who were able to purchase 
their homes and own their own homes, those abuelas/the 
grandmothers/the big mommas, they have lost their homes. When 
they pass away, their home is often sold. It is too valuable 
for the family to hold onto. Those houses transition, and those 
families will never be able to come back into Los Angeles.
    Also, just the attack on Black-owned homes in general, the 
lack of access to credit and the targeting through predatory 
home mortgage loans and so forth, has created the circumstances 
which we see now in which Black home ownership has just been 
devastated in Los Angeles.
    And when you talk about--big momma's home was the refuge, 
right? It was the place where people who had been evicted--
maybe they were formerly incarcerated, maybe they otherwise 
lacked housing--those children and those grandchildren could go 
to big momma's house to live. But now that she does not have 
that home, many of our community members don't have that place 
of refuge to go to.
    And also, the Housing Rights Center, I want to identify 
that the prevalence of housing discrimination and the 
devastating effects of housing discrimination are also causes 
of our homelessness crisis. While race discrimination is highly 
reported, not necessarily by tenants, but we find it in our 
investigations at the Housing Rights Center, because oftentimes 
people don't know that they have been discriminated against 
based on race, and so investigations and testing is strongly 
needed.
    And I thank Congressman Al Green for his March 2018 letter 
supporting the Fair Housing Act, supporting Fair Housing 
Initiatives (FIT) funding. And all of you Members of Congress 
who signed that letter, I thank you as well, and I encourage 
for those who didn't sign it, to sign it as well.
    The FIT program must be fully funded, and we are asking for 
at least $52 million of funding, which isn't that much 
considering it goes to 100 organizations over the country to 
combat housing discrimination.
    Testing and other programs is the only way we can really 
determine oftentimes if race discrimination happens. Persons 
with disabilities also face high rates of discrimination in 
housing. More than 50 percent of the complaints that are filed 
with the Housing Rights Center are based on discrimination 
based on disability.
    The Fair Housing Act also must be preserved as well and 
disparate impact. Disparate impact is being challenged. It is 
being targeted by this current Administration. The use of the 
disparate impact theory to prove unlawful discrimination must 
be protected.
    HUD has initiated its plan to weaken the Fair Housing Act 
by making it impossible to bring a case using the disparate 
impact theory, which maintains that a facially neutral policy 
when applied can have a disparate impact upon a particular 
group because of their membership.
    Banks and insurance groups are leading the charge to 
dismantle this important fair housing protection. So we ask 
that in all ways, the use of the disparate impact theory be 
protected. Also, HUD's Equal Access Rule must be reinstated as 
well.
    Moreover, families with minor children, Latinos, African 
Americans, and women are disproportionately impacted by these 
facially neutral policies and face eviction every day in the 
City of Los Angeles, and we ask for their protection as well.
    I also ask that we preserve the Community Reinvestment Act. 
A way that this committee and other Federal agencies and 
departments can address the homelessness crisis is to 
strengthen the Community Investment Act. It did well for 
California as well. A recent survey by the California 
Reinvestment Coalition found that over $27 billion in 2016 came 
to low-income communities in California because of the 
Community Reinvestment Act (CRA).
    HUD approved a conciliation agreement just a couple of 
weeks ago that settled a Los Angeles area redlining case 
against OneWest Bank and CIT Corporation. That was a case filed 
by the California Reinvestment Coalition for HUD because of 
OneWest Bank and CIT's redlining policies here in Los Angeles. 
They had over 60 retail bank branches in Los Angeles and 
Southern California, and not one of those was located in a 
community of color.
    The CRA exam also must be strengthened and must consider 
fair lending law violations. Until recently, all of the bank 
regulators considered unlawful discrimination lending as a 
factor when denying CRA exams. They don't anymore.
    Finally, a right to counsel. We must have a right to 
counsel to protect tenants who are being evicted.
    Thank you.
    Chairwoman Waters. Thank you very much, Ms. Al-Mansour.
    Ms. Vizcaino, you are now recognized for 5 minutes to 
present your oral testimony.

 STATEMENT OF ALMA VIZCAINO, SPEAKER, DOWNTOWN WOMEN'S CENTER, 
   ON BEHALF OF DOMESTIC VIOLENCE HOMELESS SERVICES COALITION

    Ms. Vizcaino. Good morning, everyone. My name is Alma 
Vizcaino, and I thank you so much for listening to my 
experience.
    I am here today to bring some light to some statistics you 
will hear about the impact on homeless women. What is troubling 
me is that I was one of 216,000 women experiencing homelessness 
across the nation. In Los Angeles, among both sheltered and 
unsheltered women, approximately half experienced domestic 
violence.
    Of course, please keep in mind this is a count of women who 
felt comfortable sharing that they had experienced domestic 
violence. Due to the stigma surrounding domestic violence, we 
know that this is an undercounted experience.
    This was the case for me. I did not acknowledge that I had 
experienced domestic violence until just 2 years ago when I was 
sitting in a mental health support group at the Downtown 
Women's Center, a local nonprofit that supports women with 
housing and healthcare. I swept it under the rug for a long 
time. There was never a good time to talk about it, so I 
didn't.
    Consequently, I have experienced periods of homelessness, 
mental health problems related to the impact of trauma, and 
chronic health conditions like diabetes as a result of my 
hardships.
    I was born in Tijuana, and raised as a toddler in South 
Central. At an early age I started running away from a home of 
alcoholism and depression. That impacted my ability to stay 
housed.
    My life was filled with struggle. The depression ended in 
having many unhealthy relationships. Domestic violence blanked 
me out mentally.
    Many women are ashamed and do not admit to control and 
abuse that they suffer, and some find it hard to get the help 
that they need. When I first reached out for help at a shelter 
in the 1980s with my two kids, it didn't really work. All of 
the shelter staff were white. There were no Hispanics or 
Blacks, and that was really weird for me because I grew up in 
South Central. And we ended up leaving the shelter because it 
was just awkward.
    I did ultimately find the help that I needed through a 
domestic violence shelter called the House of Ruth. After our 
stay there, my kids and I left to housing through Section 8 
they gave us, and we lived for 20 years in that housing. I also 
became a board member with the House of Ruth and found 
fulfillment in giving back in that way.
    For many years, we lived in the Los Feliz community. We 
felt safe, and my family thrived. My kids were doing well in 
school, and I had a few jobs. We were comfortable, and we did 
not have to move around or fear facing eviction.
    But then my building was sold, and I couldn't find another 
owner to rent to me with my voucher, so I ended up back in 
South Central. And it was very different, just in the same 
City, but South Central and Los Feliz was such like day and 
night.
    I put my kids in private school through scholarships. But 
we couldn't escape the violence, the gang-related violence also 
in the neighborhood. And we were evicted because of a shooting, 
and my children and I just had to go--everyone had to go 
wherever they could. We didn't have a plan. We didn't have 
anything.
    I now live in a single-room occupancy in the Skid Row 
community, and I love Skid Row. It looks very bad and it 
stinks, but there is so much good also going on in it, and I 
really love it.
    When I got the room, I thought, now I can apply myself to 
achieve my goals and all that, and I have ended up more 
depressed than when I was homeless. It was so hard to adjust. 
Now I am in a room and now I have a place, but in my mind, I 
wasn't able to focus properly.
    I needed more support to heal from my trauma, and I am in 
the process right now of that. The support that most 
effectively helped me were the shelters--I love the shelters--
the ministries and individuals who came through Skid Row just 
to be nice and good to the people. That really touched my 
heart, and that really helped.
    I am now at a job with the Downtown Women's Center, a 
training called LA:RISE where I am a support staff at a social 
enterprise, and I look forward to graduating the program.
    Congress should take many steps to end homelessness and 
prevent violence against women, including ensure that the HUD 
budget--okay.
    [The prepared statement of Ms. Vizcaino can be found on 
page 119 of the appendix.]
    Chairwoman Waters. Thank you, Ms. Vizcaino.
    Ms. Gallo, you are now recognized for 5 minutes.

 STATEMENT OF DORA LEONG GALLO, PRESIDENT AND CHIEF EXECUTIVE 
                OFFICER, A COMMUNITY OF FRIENDS

    Ms. Gallo. Thank you, Madam Chairwoman, members of the 
committee, and the LA Congressional Representatives here today. 
I appreciate the opportunity to provide testimony to the 
Financial Services Committee.
    My name is Dora Gallo, and I am the president and CEO of A 
Community of Friends. We are a nonprofit, community-based 
development corporation with a very specific focus of ending 
homelessness for people with mental illness.
    It began 30 years ago. Our organization has been developing 
what is now called, ``permanent supportive housing'', long 
before this particular term was created. By combining 
affordable housing with services for the most vulnerable in our 
community, we have ended homelessness for thousands.
    In the 30 years that we have been around, we have created 
50 apartment buildings throughout Los Angeles and Orange 
County, including 2 in San Diego. We have 1 building in 
Representative Waters' district, we have 3 in Representative 
Barragan's district, 1 in Representative Napolitano's district, 
and 12 in Representative Gomez's district. Currently, we house 
2,500 adults, including over 600 children.
    People who have a chronic disability, such as mental health 
or addiction, have always been particularly vulnerable to 
losing their housing. They have limited financial resources, 
less family support, and they need extensive help and services 
to exit homelessness. These are the people whom we serve.
    As some of you have noted, the recent explosion of 
homelessness in LA County is not caused by an increase in the 
number of people with chronic disabilities. Many people are 
falling into homelessness due to the extreme lack of affordable 
housing in Los Angeles. And the longer they stay homeless, the 
more likely they are to develop mental health issues.
    Stagnant wages, rising rents, and decades of disinvestment 
in affordable housing have enabled a heated real estate market 
to cause havoc on our limited housing supply. Rents are rising 
faster than renter incomes.
    The median monthly asking rent in Los Angeles is now 
$2,471, so that means renters in LA need to earn $47 per hour 
to afford the median rent. Seventy-nine percent of extremely 
low-income households in LA are paying more than half of their 
income for housing.
    The supply of affordable rental housing is also not keeping 
pace with demand. Recent studies show that LA needs over 
516,000 more affordable rental units to meet the demand.
    In 2018, the City of Los Angeles permitted 27,000 homes, 
but only 2,900 of them were affordable, 11 percent. And 
according to the National Low Income Housing Coalition, there 
are only 18 affordable and available rental homes for every 100 
extremely low-income rental households in this metropolitan 
area.
    So, housing for the lowest income must be available if we 
are to end homelessness. And for those with chronic disabling 
conditions, supportive housing, combined with a harm reduction 
approach, is the most effective tool to keep people with 
disabilities from cycling back into homelessness.
    No matter where in the community our buildings are located, 
from the San Fernando Valley to San Pedro, Boyle Heights to 
Hollywood, Compton to Koreatown, we have found that given an 
opportunity to live in decent, safe, and affordable housing, 
people can begin focusing on those other issues that led to 
their homelessness.
    Providing the level of support and services needed to end 
homelessness for people who have been in the streets for years 
requires a sustained and long-term commitment. Investments in 
Federal programs must continue if homelessness is truly to be 
eradicated.
    So we agree with Chairwoman Waters that it is difficult to 
make significant progress towards ending homelessness in LA 
without substantial new funding. The citizens of LA have done 
our part by voting to tax ourselves to provide the resources 
needed. We need Congress to take action as well.
    We commend Chairwoman Waters for introducing H.R. 1856, the 
Ending Homelessness Act of 2019. The $13 billion proposed would 
be amongst the most significant investment towards this crisis.
    In addition to homeless programs, Congress should continue 
increasing capital investments to build, preserve, and rehab 
homes affordable to people with the lowest income, such as 
Housing Finance Reform related to GSEs. That is an opportunity 
to increase resources to the National Housing Trust Fund.
    We also support efforts to expand and improve the Low-
Income Housing Tax Credit. In LA, it is used to create 
supportive housing. So, we urge Congress to support H.R. 3077, 
the Affordable Housing Credit Improvement Act, that would 
expand the housing credit authority by 50 percent. And we urge 
Congress to continue project-basing rental subsidies to ensure 
housing affordability, including project-basing HUD-VASH 
vouchers.
    And I want to conclude my remarks by saying that despite 
the challenges and the scale of the problem, there is hope. LA 
has a strong community of nonprofit organizations, public 
officials, business leaders, and private citizens with the 
passion, skill, and commitment to end homelessness.
    Partnering with our congressional leaders, we know we can 
do this. We don't have a choice.
    Thank you, Madam Chairwoman, for holding this hearing and 
for soliciting our input.
    [The prepared statement of Ms. Gallo can be found on page 
73 of the appendix.]
    Chairwoman Waters. Thank you very much, Ms. Gallo.
    I am now going to recognize myself for 5 minutes for 
questions. But before I do, I would like to give special 
recognition to Ms. Jasmine Borrego, who is the president of 
TELACU Residential Management and Property Management, and 
thank TELACU for all of the work it is doing for developing 
low-income housing. Thank you very much.
    And I did mention the veterans, but Ms. Akilah Templeton, 
who is the executive director of U.S. VETS in my district, is 
doing a fabulous job. Thank you very much for being here.
    I see the yellow T-shirts are here today. They are from the 
Alliance of California for Community Empowerment (ACCE). Thank 
you very much, ACCE
    And Susan Burton, from A New Way of Life, that is 
transitioning women from incarceration into our communities. 
Thank you so very, very much. I thank all of you.
    Mr. Watkins, of course, I know WLCAC very well. My career 
has been developed along with the long-time services that have 
been presented by WLCAC, and I thank you for your leadership. I 
worked with your father, so you know I know the origins of 
WLCAC and all that you have contributed.
    Mr. Watkins. Thank you.
    Chairwoman Waters. And I am very pleased to hear about even 
another housing complex that you have developed, the Dolores 
McCoy Villa Apartments.
    I have cut ribbons for you and that organization more than 
once, and I congratulate you one more time on a project 
providing housing opportunities for those who certainly would 
not get them, but for WLCAC or an organization like yours.
    You mentioned that sometimes, it is something with public 
policy that creates homelessness and a lack of opportunity, and 
I agree with you on that.
    And I wanted to ask you if, in fact, being located right 
adjacent to, and surrounded by, Nickerson Gardens, Jordan 
Downs, Emperor Courts, and a number of the public housing 
projects--Guntec Village is also there--have you witnessed 
those who have been evicted from public housing because of a 
failed policy that we have in the Federal Government that 
evicts families sometimes because one member of the family may 
have gotten into a problem of some kind, trying to return back 
maybe from incarceration, et cetera? Are you familiar with that 
policy?
    Mr. Watkins. Absolutely. And to my chagrin, sometimes 
families in multiple are evicted summarily, and there isn't any 
clear explanation.
    There is an article in either Popular Science or Popular 
Mechanics--I believe it is Popular Science--where some of their 
writers went along with the LAPD one night to witness the 
effectiveness of shock-and-awe tactics. They used explosive 
devices and bright light to wake families in the middle of the 
night, and summarily evicted 44 families in one night in 
Nickerson Gardens.
    Despite my efforts, the only source of news on that subject 
that I was able to find was in that article, and that is one 
example. I hear too many stories about people being evicted 
because their child visited them without a permit to park 
overnight or that the child got into trouble.
    But here is the thing. If you are living in the lowest, 
most affordable--because if you are a billionaire, affordable 
housing means something different than if you are in the lowest 
income group. And so, the lowest most affordable housing is 
what I consider public housing to be, and when you get evicted 
from that, I know there is nowhere to go.
    You will recall that I have talked to you a number of times 
about who makes up the population downtown. It would be very 
interesting to find out how the population downtown is made up 
of people who have been evicted from the most affordable low-
income housing.
    Chairwoman Waters. And what about an attempt to keep people 
from sleeping in their cars who had no place else to sleep and 
taking people's possessions on the street, are you familiar 
with those policies and what it does to those who have no place 
else to go and no place to keep their possessions?
    Mr. Watkins. I get criticized because I allow small groups 
of homeless to live on public property that we own. I get 
criticized internally and externally, because my risk manager 
says that this is a liability-prone policy for WLCAC to allow 
this.
    I allow people to come in and freely use showers. We have 
showers that are available to the general public, and they come 
in at all hours of the night. So, we don't lock our compound 
overnight.
    But I do get criticized for it because, after all, it isn't 
legal to allow people to live on a vacant lot.
    Meanwhile, I am trying to break ground on a 46-unit 
compound in Compton, 126 Compton Boulevard, and we have been 
waiting for months to just get out of the planning process. We 
get promised week over week over--I just got a message in here 
today that we are getting told it will be another week before 
we get the signoff on the plans, yet we have been in there 
since March.
    And this happens all the time. The process, although I 
grant that it is necessary, it is far from streamlined. It is 
anything but streamlined.
    Chairwoman Waters. I want to thank you very much.
    And I want you to know that I had a town hall meeting 
recently where I advised the County that you are feeding people 
the hot lunch program, our seniors, and they are wandering in 
from all over and sleeping on the ground all over the City, but 
they are wandering in to be fed.
    And so, I am coming out with some representatives from the 
County so that we can get these seniors off the street, whom 
you are feeding, in addition to all of the other stuff that you 
are doing.
    Thank you very much.
    Mr. Watkins. Thank you.
    Chairwoman Waters. The Chair now recognizes Representative 
Brad Sherman from the 30th District of California.
    Mr. Sherman. Thank you, Madam Chairwoman. And I want to 
thank you for holding these hearings in my district and 
throughout Los Angeles.
    Homelessness is the number one problem I hear about. The 
Federal Government has to do more as far as resources. We have 
to be more efficient in how we spend them.
    But these hearings will also, hopefully, shine a light on 
local policies that cause rents to be so much higher in Los 
Angeles than they are in so many cities around the country. The 
rents are too damn high, but also the wages are too damn low.
    We are told that there is a low unemployment rate, but I 
won't be satisfied until I have a bunch of guys--and it is 
always guys--in thousand-dollar suits blockading my office and 
using tactics that some groups in here may occasionally use to 
say, ``Oh, my God, we can't find enough workers,'' and my 
response will be, ``Have you tried raising the wages?''
    Wages have barely kept up with inflation, and they have 
never kept up with the inflation and the cost of housing in 
metropolitan areas.
    One issue that comes up, and this could be controversial, 
is how large should a unit be? In Europe and in Japan, each 
person, even middle class and wealthy people, have smaller 
units per the number of people living there. If it was our 
option and our choice, we would want to provide every homeless 
person, every housing endangered person with a traditional 
American mini-mansion or as many square feet as we could.
    But I will ask, first, Ms. Gallo, but maybe Mr. Watkins or 
others would comment as well, are we being prevented from 
building units? The Japanese have been forerunners in how to 
make people comfortable in less square footage. Is that even 
legal?
    Ms. Gallo. It is actually legal. The building codes 
actually are quite lenient as it relates to size of a 
particular apartment that is eligible to be occupied. I will 
tell you that the building codes require 120 square feet for 
one person and an additional 70 feet for every additional 
person. So, it can be small.
    Mr. Sherman. It can be done.
    Ms. Gallo. And that is one reason you have seen some cities 
promoting microunits, what we call studios, 300 square feet, 
325 square feet.
    What I would caution, though, is to make sure that whatever 
size unit we are proposing, that it is appropriate for the 
people living in there for long-term sustainability. If it is 
too small, and someone gets stable in housing over time, and 
starts to accumulate things, then they can become dissatisfied 
with the size of the apartment. So it does require thought, but 
it can be done.
    Mr. Sherman. Has anyone else had difficulties being able to 
site a unit? I know there are neighborhoods in this country 
where if you try to put more than four houses on an acre, the 
NIMBYs rise up. Mr. Watkins?
    Mr. Watkins. Housing policy demands--and you all know about 
this--ADA compliance. ADA compliance oftentimes makes a project 
near impossible to plan and complete. But more often than not, 
it is all of the provisions for square footage within a certain 
footprint of land.
    And we have been trying to put forth a project to build 
1,000 single occupancy units. We are not sure how far we are 
going to get, but we think that would be a good response for 
people coming out of homelessness by way of incarceration. So, 
we are planning that as we speak.
    I don't know if I answered your question. Those are going 
to be small units, single occupancy.
    Mr. Sherman. I only have 40 seconds left, so I yield back.
    Chairwoman Waters. Thank you very much.
    The Chair now recognizes the gentlelady from California, 
Ms. Barragan.
    Ms. Barragan. Thank you.
    First, I want to start by thanking you, Ms. Gallo, for your 
work in my district. I know you have four sites there. Thank 
you very much for that work.
    Mr. Watkins, since the first day that I was a Member of 
Congress, I reached out and we had an opportunity to talk, and 
I have learned a lot about the work that you are doing in Watts 
and in the greater community. I want to thank you for that 
work. We have actually done a number of events at the Watts 
Labor Community Action Committee where you have your location.
    I want to talk a little bit about seniors who are 
experiencing homelessness. The rising housing costs, compounded 
by insufficient retirement income and life's calamities, are 
driving more seniors into Los Angeles streets. In LA County 
alone, senior homelessness spiked 22 percent in 2018. 
Nationally, only one of every three seniors is eligible for 
housing assistance because housing programs receive inadequate 
funding to meet existing growing need.
    Can you talk a little bit about what unique needs older 
adults have, from your experience, and how well it is that the 
homeless services system can help set them so they can get out 
of homelessness quickly? And maybe share some feedback for us 
on what Congress can be doing to help the situation, to better 
serve this population.
    Mr. Watkins. We are one of the largest senior service 
providers in the City, and we have--I don't just say this to 
blow smoke--the best crew, the best staff, and the best 
leadership for that work.
    And my director, Phyllis Willis, is an absolute expert who 
is putting input, policy input to the City and the County of 
Los Angeles on how we should deal with not only the problem of 
senior homelessness, but seniors who can't get into our places 
because they are raising children. Oftentimes they have second- 
and third-generation children that they are responsible for and 
can't get out to get the services that we provide. So we will 
go to them.
    But I think the single largest impediment to seniors 
availing themselves of the services that are available is 
information, information that makes them aware of what the 
possibilities are--where do they go, what do they ask for, what 
can they ask for--and that number is so much larger than the 
number that we actually serve. And I have to think that that is 
at least the underbelly of part of that beast.
    Ms. Barragan. Right. The other thing I want to touch 
quickly on, and I know that you are doing a lot of work on 
this, can you share some of what you are doing in the community 
to make sure the homeless population will be counted in the 
census? Because we know that could have a disastrous impact on 
funding for services and programs.
    Can you talk a little bit about what you are doing in the 
community that maybe we can all hear about and learn about?
    Mr. Watkins. Certainly. As I said, we are building low-
income affordable housing. When I say low income, I mean very 
low income. We have been very low-income affordable housing 
providers for 54 years with nearly 1,000 units within 5 minutes 
of our headquarters in Watts.
    I said we want to build 1,000 single occupancy units. But 
we have hundreds more that now need to be rebuilt, that need to 
be rehabbed. And the problem with doing that again is the 
bureaucratic process and what it costs to make a project work.
    But as far as what we are doing to address the problem, I 
know this afternoon I have a meeting with a gentleman who 
specializes in container housing.
    Ms. Barragan. Right.
    Mr. Watkins. And when we thought about doing container 
housing 15 years ago, we were told that it would never make it 
past the City Council because it appears as though it is 
warehousing human beings.
    We think that container housing is a solution that 
Congressman Sherman spoke about when he talked about small 
spaces. Container housing can be affordable. It can be 
completely comfortable with built-in furnishings. It can be 
made available to people in large numbers without needing to 
build it into the ground.
    Ms. Barragan. Right. Do you want to comment on the census, 
to making sure everybody counts in the homeless population 
counting for the census?
    Mr. Watkins. Yes. Every year we participate in that, and 
our site is a hub where literally, I don't know, 80, 90 people 
go out into the community and count. And they have to be very 
adept at getting under the freeway overpasses, down into the 
canals, and like I mentioned earlier, who is living under 
someone's home.
    It is a difficult proposition, but it is also made more 
difficult with the current administrative policy of targeting 
people who have questionable documentation, and that hurts us. 
That hurts Watts tremendously. For a community that is 75 
percent Hispanic/Latino, we can't even fathom what is going to 
happen when people who just refuse to be counted are left out 
of the congressional distribution of resources.
    Ms. Barragan. Thank you for your work.
    And I yield back.
    Chairwoman Waters. Thank you.
    Ladies and gentlemen, the Mayor of the City of Los Angeles 
has arrived. We are going to continue with our last two 
questioners, our Members of Congress, and then some of the 
discussion that has been going on about what is happening in 
the City, I think will be addressed in the Mayor's testimony.
    So, Mr. Mayor, we just have two more Members who will be 
asking questions, and then you are on. Thank you very much.
    And now, the gentleman from Texas, Mr. Green, is recognized 
for 5 minutes.
    Mr. Green. Thank you, Madam Chairwoman.
    I am, to a certain extent, grateful that I was born into 
poverty, and I say this because for a good deal of my life, I 
saw life from the bottom up, as opposed to the top down. And 
when you see life from the bottom up, you learn the true 
meaning of, ``But for the grace of God, there go I.''
    I arrived early enough to visit what is known as Skid Row. 
I find that name distasteful, by the way. But I visited Skid 
Row, and I will tell you that people who talk about this 
problem based upon what we have read cannot truly appreciate 
the human tragedy unless you see what is happening on what we 
call Skid Row.
    It was my misfortune and the misfortune of at least one 
person for me to be there today because I literally passed a 
person who had died on the street. I am told that this is not 
an unusual occurrence and that it doesn't happen all the time, 
but it happens too often.
    I saw people who were homeless, but also, you could sense 
the hopelessness. You could sense the feeling of, ``Society has 
abandoned me.''
    It really is a human tragedy of the highest magnitude. And 
I appreciate what all of you are trying to do to resolve it and 
to help us. I appreciate what the City is trying to do. I 
appreciate the County. But in the final analysis, we have to 
get more people involved who understand, ``But for the grace of 
God, there go I.''
    Unfortunately, Mr. Watkins, we have a person at the highest 
office in this land who, in my opinion, does not appreciate, 
``But for the grace of God, there go I.''
    I think that if I could have a wish that would not cause me 
to find my way to the gates of hell, it would be that the 
President could live one day on Skid Row. I think he would have 
a different appreciation for the human tragedy that he, as 
Commander-in-Chief, should have a greater sense of 
responsibility for aiding and assisting and resolving.
    So, I thank you. I wanted to let you know that I appreciate 
all of you for what you are doing.
    Ms. Al-Mansour, you mentioned testing. Explain again--you 
explained it to a limited extent--how important this is in 
dealing with invidious discrimination, because it is much more 
pervasive than a good many people would think. Because if you 
live your life from the top down, you don't see all of the 
suffering that we who have seen it from the bottom up can 
appreciate. Would you kindly explain testing again?
    Ms. Al-Mansour. Yes. Testing is basically an undercover 
measure that fair housing organizations use to determine if 
there is evidence to show that there was any discrimination in 
applying for a rental unit or applying for a home or a home 
loan. In Los Angeles, we do primarily rental testing at the 
Housing Rights Center.
    For somebody who is disabled or elderly, who maybe has 
children, oftentimes they know they have been discriminated 
against when they apply for an apartment or if they are being 
evicted because they have asked for reasonable accommodation, 
and it has been denied. They asked for a caregiver or a support 
animal or a change in rules.
    Maybe they get their Social Security benefits on the 3rd, 
but the rent is due on the 1st, so they keep getting late fees, 
which is setting them up for eviction. So it is very obvious, 
that discrimination.
    It is very obvious when a family is told, ``Your children 
can't play outside. You are going to be evicted if your 
children come outside and make too much noise.'' Again, that is 
an obvious form of discrimination.
    Race discrimination is not so obvious. Today, most 
landlords don't say, I don't want you because you are Black, 
Latino, or something else.
    And oftentimes, a tenant who is applying or an applicant 
doesn't know that they have been discriminated against. So we 
send similarly situated people in different categories--it 
could be race, sexual orientation, a lot of different 
categories--to go apply for that apartment and let us know, how 
much were you told the rent would be? Were you given an 
incentive? Were you told you had to move out early, and so 
forth?
    It is very prevalent, and it happens every day, and 
unfortunately, most people never know they have been 
discriminated against.
    Mr. Green. Thank you.
    I will yield back the balance of my time. Thank you, Madam 
Chairwoman.
    Chairwoman Waters. Thank you very much.
    The Chair now recognizes the gentlewoman from Texas, Ms. 
Garcia.
    Ms. Garcia of Texas. Thank you, Madam Chairwoman. And 
again, I am so appreciative of your efforts to have this 
hearing and to bring such a great panel together that are the 
direct providers on the ground.
    And while I regret that I won't be able to spend the 
afternoon with some of you to see some of your programs, please 
know that I truly appreciate all of the work that you are 
doing.
    And when I listened to my colleague from Houston talk about 
growing up from the bottom up, it kind of reminded me of some 
of my own story. People have often asked me, how did it feel 
growing up poor, and I just simply tell them it felt great. I 
didn't know any better.
    But I am glad that you all are there working with people to 
make sure that you can give them some inspiration, working with 
them so that they can each feel their comfort zone and feel 
their comfort level of what space they need in terms of housing 
because, obviously, we know that some folks don't want to be 
pushed into a house, don't want to be pushed out of underneath 
that house. There is a certain level of making sure that we 
know what the individual needs and wants.
    Mr. Haynes, first of all, thank you for sharing your story. 
When you look at this issue, what is your best advice to 
someone about transitioning, and how do you approach them? What 
can we learn from you, who has transitioned, in terms of 
helping others to transition, if they choose to?
    Mr. Haynes. The most important thing is to really listen to 
what they are saying. We might ask them a question, but we are 
not going to really listen to the answer.
    Ms. Garcia of Texas. Right.
    Mr. Haynes. We are just going to tell them this is what we 
have and expect them to make do with what is being offered when 
it is really not what they need.
    Ms. Garcia of Texas. We need to let them make their own 
choices?
    Mr. Haynes. Yes.
    Ms. Garcia of Texas. Thank you for that.
    Ms. Vizcaino, you mentioned the domestic violence 
situations of women, and you also mentioned, I think, some 
about veterans. I know from some of my work in Texas serving on 
the Veterans Committee in the State Senate that there are more 
minority women, Black and Brown, who are going into the service 
than ever before.
    So what specific needs or challenges do we have for that 
population that we need to try to be mindful of as we consider 
the funding challenges not only locally, but federally?
    Ms. Vizcaino. That is a good question. I am not sure what 
the answer is to that. Just have more hearings and meetings and 
let it be brought to the table, the specific needs of the 
women, because it is not like a generalized thing. Each one is 
an individual, personalized case, and so it is hard to just 
like assembly-line everyone, whether it be women, men, or 
veterans.
    Ms. Garcia of Texas. Ms. Gallo, do you have any 
suggestions? And I was wondering, too, because as I said 
earlier, I started as a social worker, then I was a Legal Aid 
lawyer, so I have dealt with a lot of poverty issues throughout 
my career.
    And it seems like there are more women and children in the 
homeless population, at least that I have seen in Houston, and 
from the data, it shows that there is an increase. It used to 
just be an individual male.
    Ms. Gallo. Right, right.
    Ms. Garcia of Texas. Now, we are seeing more women and 
children. So is there any--again, a similar question as I asked 
Ms. Vizcaino, are there any different issues that we need to 
address that are specific to that population?
    Ms. Gallo. Yes. I think Ms. Hartman also had made some 
references to this in terms of the specialized needs of women, 
both women unaccompanied, as well as women in the military 
service. I think frequently when we talk about individuals and 
families, we are doing exactly that and not focusing on the 
particular needs of women.
    I think you are right in noticing an increase. We started 
serving families or even women in early 2000. When we first 
started 30 years ago, we were focusing on individuals and 
mostly males. And then, we started noticing women out on the 
streets more often.
    And one of the things that we noticed immediately is the 
level of trauma that they are encountering. and the reasons 
that led to their homelessness; in many cases, it was related 
to domestic violence or intimate partner relationships, and as 
Ms. Vizcaino said, the hesitancy of talking about it.
    So it takes a long time to figure out what the issue is. 
You understand the homeless status, but building that trust and 
providing that level of services and the mental health support 
for an individual, for a female to talk about what led to their 
homelessness, that is an additional level of support that we 
don't quite push and focus on in the beginning of the services 
program. But I think we are starting to do that with some of 
the recognition and noticing the increases that have come out 
for women who are homeless.
    But trauma is a big part of it and then recognizing the 
safety issues related to their discussion of their past 
histories with domestic violence and intimate partner 
relationships.
    Ms. Garcia of Texas. Thank you.
    And thank you, Madam Chairwoman, and I yield back.
    Chairwoman Waters. Thank you very much.
    I would like to thank our second panel of witnesses for 
their testimony here today.
    And I would like to say a very special thanks to Ms. 
Vizcaino and Mr. Haynes for coming here and telling your 
stories. And to our panel of witnesses here today, it is your 
work that causes Mr. Haynes and Ms. Vizcaino to be here today 
to talk about how their lives have been changed.
    So, everybody give a big round of applause to our second 
panel of witnesses.
    We will now pause for a minute to set up our third panel 
for today's hearing. And Mr. Mayor, it is all yours.
    [brief recess]
    Chairwoman Waters. While we have a few people greeting the 
Mayor, I would like to thank Ms. Rachel Sunday, President and 
CEO of the Power of a Shower that is based in Playa del Rey; 
and, of course, Ms. Lori Gay, President and CEO of the 
Neighborhood Housing Services of LA County; Reverend Omar 
Muhammad, Faithful Central Bible Church; and of course, we have 
here representatives from the Love Mission, Community 
Development Incorporated, and People Helping People.
    A round of applause additionally for those who are involved 
with assisting with our homelessness crisis.
    If I could get you to take your seats now, I would 
appreciate it.
    I would now like to welcome our final witness for today's 
hearing, the Honorable Eric Garcetti, Mayor of the City of Los 
Angeles. As you know, Mayor Garcetti is the 42nd Mayor of Los 
Angeles and has served as Mayor since 2013.
    Mr. Mayor, we welcome you, and I thank you for the 
opportunity that you afforded to me and other Members of 
Congress to visit with you recently while you helped to help us 
understand exactly what you are doing and what other assistance 
could be helpful in what you are attempting to do.
    So with that, Mr. Mayor, you are now recognized for 5 
minutes to present your oral testimony.

 STATEMENT OF THE HONORABLE ERIC GARCETTI, MAYOR, CITY OF LOS 
                            ANGELES

    Mr. Garcetti. Thank you so much, Madam Chairwoman, and 
thank you for your friendship, thank you for your leadership, 
and thank you for your presence here.
    It is not the first time we have testified together in 
Exposition Park, but whenever Maxine Waters is in Exposition 
Park on an important subject, I am there. And this is the most 
important of all of the subjects I have ever come before you to 
talk about.
    And I am so grateful for you to have two Tejanos here, 
Thank you to Representative Green and Representative Garcia for 
your lived experience and your perspective.
    And my dear friend Brad Sherman, who represents my hometown 
in the San Fernando Valley, thank you, too, for being a part of 
this.
    I come before you today as a mayor, as a parent, as a 
foster parent, as a volunteer and organizer, and as a long-time 
activist on the issue of homelessness. Representative Green, 
when you were talking about Skid Row, I started when I was 14 
on Skid Row, something that predated even my birth by decades 
as a place where we deposited our social ills and trauma.
    And I sometimes think about what the 14-year-old Eric 
Garcetti would tell the 48-year-old Eric Garcetti if he could 
talk to him about how far we have come and how far we have not 
come.
    I am asked all the time what causes homelessness, and I am 
sure you have had great testimony. I am the last panel, I 
guess, a panel of one. You are probably a little bit tired, 
probably a little bit hungry, and probably a little bit 
depressed hearing some of the things that you have heard today. 
But I hope to give you a perspective to kind of give you some 
hope and some belief that this is a human-caused problem that 
ultimately can be a human-solved problem as well.
    There is no issue I work on more than this. And I have 
brought together mayors across the country on this issue. 
Mayors, ironically, have little direct power over the causes 
and the cures of homelessness.
    We have police forces, we have sanitation departments or 
bureaus, but you can't clean or arrest your way out of 
homelessness. When it comes to building housing, preventing 
evictions, when we come to the most simple way to explain where 
homelessness comes from, I say it is unaffordable housing meets 
trauma.
    That trauma may be the manifestation of veterans coming 
home from war and the horrors of war; women, 91 percent of whom 
on Skid Row are the survivors of sexual and/or domestic 
violence; children who emancipate out of a foster care system; 
mental health that has gone untreated; substance abuse issues; 
low wages.
    These things are different in each person, but some 
combination of all of those pieces of trauma are shared by 
everybody. It might be just economic trauma for some.
    The good news here in Los Angeles is, we don't come to this 
conversation saying, ``Wow, we have a crisis. Please figure it 
out for us.'' We come, as you heard today, from a place that 
the recent national conference for the Coalition to End 
Homelessness brought together saying LA is now seen as the 
model.
    And I have this conversation with people a lot. Well, I 
guess the plan isn't working because homelessness in the County 
went up 12 percent, or in the City 16 percent, in a State where 
the counties, on average, went up 35 percent this last year 
alone.
    One of the things I point out, though, is that this isn't 
about whether a model is working now. It is about whether we 
have the resources to actually fuel that model to success.
    In military terms, I served in the Navy for 12\1/2\ years, 
and you can have the best-trained people and equipment, but if 
you don't have scale, you will be defeated eventually, even by 
folks who have less than you do.
    And it is an interesting thing. To stay with that metaphor, 
today people demand, and rightfully so and impatiently so when 
they see the horrors on the streets of America in our worst 
places where there are homeless, you see folks who want us to 
have D-Day, a conquering of Europe, and the Marshall Plan all 
overnight.
    So one of my first points would be we have to extinguish 
that belief and get rid of that fantasy that there is some 
magic formula that within a few weeks or months, this will 
disappear, that we can ship people off to this place over in 
the desert or on the beach or create a massive tent and just 
move them away. That is not how this gets done.
    But on the other extreme, I want you to hear that it is 
time to get rid of the cynical hopelessness that we can't solve 
this problem, and I will give you a couple of cases of how I 
have that faith in my bones.
    In just 4 years of addressing this problem here in Los 
Angeles, we have doubled the success that we have in the number 
of people that we house. And statistics are tough, because they 
can cut both ways, but statistics really are stories. Numbers 
are really narratives of real people.
    I spend a lot of time on the streets with outreach teams. 
Yesterday, I was walking the Los Angeles River talking to folks 
who are living in tents, hearing their lived experience, trying 
to take my power as Mayor, saying, this is the day you should 
come home. You should go out of homelessness.
    And we went from 9,000 people being housed a year to 21,300 
last year. Now if you told me that 4 years ago, I would say we 
are on our way home to solving homelessness.
    You all are public policy folks. It is rare to get that 
kind of success where in a short period of time you can double 
that.
    Put on top of those 21,000, the 27,000 who found their own 
way out of homelessness. So last year, 48,000 real people in 
the County of Los Angeles moved from homelessness into homes. 
But 54,000 new people went into homelessness.
    So when we see an increase, it is not that the success 
isn't working. It is that we don't have the scale, and we are 
not preventing it from happening in the first place.
    Second point, the Federal Government has to be a part of 
this. And I know I am preaching to the converted with the four 
of you, but back in the 1980s when the Federal Government 
started to step up on homelessness, when I was first becoming 
an activist on this, it made a difference.
    We calculated between State cuts--which aren't the 
responsibility of the folks here from Texas, nor our Members of 
Congress here--which got rid of our redevelopment dollars, and 
Federal cuts to our affordable housing dollars--we calculated 
this--$20 billion of affordable housing over the last decade 
disappeared.
    In other words, if we had just kept the level of funding 
from 10 years ago, about 20,000 people's worth of housing would 
have been put in LA County, enough for us not to have gone up, 
but probably to have reduced homelessness.
    I see the red light is on, so I will try to wrap things up. 
But let me leave you with two things.
    First, this is a public health crisis. New data that just 
came out said those who are unhoused versus those who are in 
shelter, those who are out on the streets versus those in the 
shelters, are 25 times more likely to have triple morbidity of 
substance abuse, mental health, and physical health problems. 
If we think this is only a housing problem, we need to make 
sure that the health issues are there.
    Second, when the Federal Government stepped up for our 
veterans, here in Los Angeles we housed more homeless veterans 
than anywhere in the country. We had more to begin with, but we 
reduced by 80 percent the number of veterans. In fact, we have 
housed double the number that we started with. There just are 
the 20 percent left because of the new folks who are coming out 
onto the street every single day.
    And third, we have to look at prevention. It is time to 
pass Maxine Waters' Ending Homelessness Act now.
    And I will say this last thing to our President because you 
invoked our Commander-in-Chief. I retired from the Navy, so he 
is not in my chain of command militarily anymore. But when he 
was in Japan recently, he said a few words about this City and 
about San Francisco.
    He said the streets were so clean in Tokyo. Nobody was 
homeless. He said it is disgusting, or whatever words he used, 
in my City and in San Francisco, and he said he might have to 
do something about it. He said this problem started 2 years 
ago.
    In my response--and I know we are just supposed to punch 
our political opponents back--I didn't. I said any day the 
Commander-in-Chief of this country is talking about 
homelessness is an opportunity and a good day.
    And I said, if he is really willing to come to Skid Row and 
walk that walk, maybe not spend the night, but walk that walk, 
or have us come to the White House and bring a coalition of 
independent Republican and Democratic mayors who struggle with 
this issue across America, and he wants to save lives, we will 
call his bluff on that, and we will say we can save lives 
together.
    I told him this problem didn't start 2 years ago when he 
became President, and it didn't start 6 years ago when I became 
mayor. This has been the legacy of too many decades of neglect, 
but it is on our watch to end it. And Washington, D.C., must 
and will, with your success, be a part of that solution.
    Thank you.
    [The prepared statement of Mayor Garcetti can be found on 
page 78 of the appendix.]
    Chairwoman Waters. Thank you very much, Mr. Mayor.
    I will now recognize myself for 5 minutes to raise a few 
questions with you.
    I am very pleased about your support of my legislation. We 
developed this legislation understanding that $13 billion was 
going to raise some eyebrows, but we believe if we are to end 
homelessness, we have to supply the resources to apply to the 
problem.
    Having said that, I wanted to ask you a little bit about 
your budget. In addition to the Federal money that you receive 
from Washington, D.C., and the grants that we give to all of 
the States and Cities, there was an initiative that was passed, 
I believe it was HHH--
    Mr. Garcetti. Yes, correct.
    Chairwoman Waters. --where you received additional 
resources. And I know that you have put those resources to 
work. I am interested in one aspect of that right now, and that 
is the transitional housing, which I think is extremely 
exciting, and you showed us an example of it on the screen. And 
I want to know how many have you developed, how many are you 
going to develop, and will that include South Central or South 
Los Angeles?
    Mr. Garcetti. Absolutely, it will, including in your 
district, Chairwoman.
    It is interesting that you talk about the $13 billion, 
which shouldn't raise eyebrows. It is a sad commentary when we 
think $13 billion will raise eyebrows when the City and County 
together through Measures HHH and H have raised about $4.5 
billion in housing money and services money.
    And we are 3 percent of the nation's population. If you do 
the math, we should have $120 billion just to match what we 
have raised locally.
    So your ambition is not only impressive, it should be 
looked at as a start, because if you match just what LA has 
done, the Federal Government would be putting in $120 billion. 
Now, not every community has homelessness equal to ours, so if 
you looked at the homeless population, maybe it would be $40 
billion or $50 billion.
    But, yes, we have two measures that passed. HHH is for Los 
Angeles City itself, the largest housing measure in U.S. 
history to pass by a vote of the voters.
    It leverages about $5 billion worth of housing from people 
looking at shipping containers and new innovative ways to do it 
cheaper and faster, to traditional, really beautifully-built 
apartments for folks who have the deepest need and perhaps 
sometimes the triple diagnosis that I mentioned before and will 
need to have services for the rest of their lives.
    We have 110 projects of permanent housing. And on the 
transitional housing side, we have 25 transitional housing 
shelters that we are looking to open up in this next 12 months, 
4 of which are already open.
    In South Los Angeles, we have, I would say, almost a 
preponderance of those, including in the former animal services 
yard next to where we had an unused kind of dog park. It is 
going to be opening up in about a month, month and a half.
    We have a group of engineers, architects, and builders, 
who, almost like a war room, manage and we can get up in 60 
days span tents, right now, that have cubicles where people can 
have their own beds. It is a new model where people can bring 
their pets, their partners, and their property, which is why 
people have been shelter-resistant in the past.
    My personal wish, though we don't know where the money will 
come from--though if this passes, we could--is to double the 
number to about 50. That would give us at that point somewhere 
around 3,000 to 4,000 beds, which would turn over every, let's 
say, 6 months or so. So you are looking at every year almost 
9,000 to 10,000 people being served. Put that in for a few 
years, and we could not only make a dent in homelessness, but 
we might have a chance of ending street homelessness in LA.
    Chairwoman Waters. Thank you very much.
    I was interviewed on KJLH the day before yesterday, I 
believe, and Dominique DiPrima, whom you are familiar with, had 
an idea, and I told her I would share it with you.
    Mr. Garcetti. Great.
    Chairwoman Waters. She thinks that you should buy up some 
of the motels that are problematic in the community and convert 
those into housing, and she didn't identify whether it is 
transitional or permanent supportive housing, or what have you.
    But I thought it was a pretty good idea, particularly if 
those motels are presenting us with a problem that causes you 
to have to use resources to respond to complaints and violence, 
or any of that.
    Is that something that you have thought about or you could 
or what would you tell Dominique DiPrima?
    Mr. Garcetti. I would say, ``Dominique, you are one of the 
smartest people I know,'' and all of her ideas are good.
    We are moving on motels. We need a little bit of State help 
to change the residency, that there is a maximum of 29 days, so 
that we can take existing motels today and just do leases on 
them while we are looking for money to buy motels.
    Now, we have to get the owners to do it, where we have had 
problematic ones. They are far and few between that they are 
ready to seize, but absolutely, that is part of it.
    We, in fact, had tens of millions of dollars lined up 
through the Salvation Army and some other folks to do just 
that, and those monies, unfortunately, fell through for the 
developer that was going to do this.
    But we will not be deterred. I think those motels are a 
twofer: get rid of blight; and at the same time, have a great 
place to put housing right now. So we do expect a number of 
those--San Fernando Valley, there are some in South LA, as 
well--in the next 12 months or so to come online.
    Chairwoman Waters. Well, you certainly have a friend in 
Governor Newsom--
    Mr. Garcetti. Yes, we do.
    Chairwoman Waters. --who is doing everything that he can to 
be of help.
    With that, I will recognize Representative Sherman for 5 
minutes for questions.
    Mr. Sherman. Thank you.
    Mr. Garcetti. Hello, Representative Sherman.
    Mr. Sherman. Mayor, thanks for being here. And thanks for 
your dedication to this problem.
    We pass a lot of laws in Congress, we repeal some, but we 
cannot repeal the law of supply and demand.
    Mr. Garcetti. Yes.
    Mr. Sherman. We need more units. We especially need more 
rental units. It is best if we can get the construction of 
affordable units. Even if we get luxury units built, somebody 
is moving in there who would otherwise be in a non-luxury unit.
    I want to focus on the fiscalization of land use planning 
where our system for financing government--and government needs 
money, but it is important how you raise the money.
    If you wanted to build an auto dealership, I have a dozen 
Cities in this County that would give you free land, and the 
Mayor will come in and help you not just cut the ribbon, they 
will help you build.
    Mr. Garcetti. Yes.
    Mr. Sherman. And on the other hand, if you want to build 
housing, you pay an impact fee.
    You may have seen the headline in the Los Angeles Times, 
stating that one reason housing is so expensive in California 
is that cities and counties charge high developer fees. So what 
do we do so that we finance government based on ability to pay, 
which the State income tax being a good way to measure that and 
instead, we finance based upon whether you are building 
something that the City Government has to provide police and 
fire protection for?
    Mr. Garcetti. Absolutely. As somebody who led on tax policy 
on the Board of Equalization, and as a tax lawyer, it is a 
great question from you, Representative.
    A couple of things. One, between impact fees--and I do 
believe that 40 years after Tom Bradley first proposed it, we 
did pass a linkage fee, which says if you are building luxury 
housing, just like we do for parks and other things, you do 
have to put money aside for affordable housing. And I think 
that will raise as much as $100 million or $100 million worth 
of subsidized low-income housing out of that with the building 
boom we are having.
    But you are right. You can't keep putting everything on 
developers. But between getting nothing done by having no fees 
on them and having fees, there is something in between that 
enough cities don't use, which is the power of zoning. It 
doesn't cost you anything, but it can produce more housing, and 
then you can ask for something in exchange.
    Mr. Sherman. At a minimum, I hope you would join me--and 
this is a State matter--in trying to get the sales tax that is 
generated by building, because you have all of the--
    Mr. Garcetti. Of course, the materials.
    Mr. Sherman. --building materials allocated to the city 
where the building takes place, rather than where the warehouse 
for the building supplies is located.
    I do want to point out that we are focused on homelessness, 
but I think there was general agreement before you got here, 
that the rents are too damn high.
    Mr. Garcetti. Yes.
    Mr. Sherman. And it is not just for the homeless.
    Mr. Garcetti. Correct.
    Mr. Sherman. The homelessness is the tip of the iceberg, 
and the homelessness we see is the tip of that iceberg. But for 
every homeless person, there are so many who could get evicted 
tomorrow. And they may never get evicted, but they are losing 
stomach lining today because they could be evicted tomorrow.
    There are people cutting back on their medicines. There are 
people going to payday lenders to be able to make the--there 
are people who are 1 month delinquent and paying a late fee, 
and they will somehow stay in their unit. And we have to do 
everything possible to build more housing, and the more 
affordable that housing is, the better.
    I want to focus--you and I, I think, are going to be 
together in Chatsworth tomorrow, where there was the old LA 
Times plant.
    Mr. Garcetti. Yes.
    Mr. Sherman. Now, it is going to be, in part, housing. And 
you had to sweep aside some problems for that to happen because 
the land was zoned industrial.
    But what can we do on a systemic level to make sure that if 
you want to build affordable housing and rentable housing, you 
can do it regardless of zoning restrictions? I can see that you 
might not want one unit among a bunch of factories.
    Mr. Garcetti. Sure.
    Mr. Sherman. But what can be done to say yes to those who 
want to build the rental housing--
    Mr. Garcetti. That is where I was headed.
    Mr. Sherman. --without the Mayor having to intervene?
    Mr. Garcetti. Of course. And it shouldn't require political 
leadership because mayors change and councils change, and 
things like that. So, we have changed the zoning.
    We are investing in 15 new rail lines in Los Angeles, the 
biggest program of a city in U.S. history, thanks also to the 
voters of Measure M.
    What we started doing already along those transit lines--
and there will be one in the Northwest San Fernando Valley 
around CSUN--is we have said, if you are close to transit and 
genuinely big transit stops--
    Mr. Sherman. Let me point out that in other parts of the 
City, you are close to a subway or rails or a grade-separated 
rail. And only in the San Fernando Valley do you call it 
transit because you have a bus stop. But we will talk about 
that one.
    Mr. Garcetti. Well, you and I have. And we made sure that 
the valley where I am from was not written out of that this 
last time. So, we look forward to equitable treatment there.
    But what we have done is we said you can go higher and 
denser around transit if you build affordable housing on your 
own dime. It is not a linkage fee, so it is not additional 
costs. It is an additional opportunity and an additional 
benefit.
    And half of the housing now in Los Angeles City is coming 
through this one change, fully half of it. And Los Angeles is 
building 75 percent of all of the housing in LA County, and we 
are just 40 percent of the population.
    So your point about those neighboring cities and towns, 
nobody can afford to say no and then say where does 
homelessness come from if you are not willing to build housing 
in your own neighborhoods, and affordable housing as well.
    And to your rent piece as well, at the State level, I hope 
that the State legislature will pass, and I know the Governor 
will sign, 1482, which is an anti-rent gouging ordinance, which 
says you cannot raise rents 25, 50 percent.
    Mr. Sherman. And I do want to put in one other thing. We 
may or may not get split roll, but if we get split roll, it has 
to be tied to ending fees at least for rental housing.
    Mr. Garcetti. Absolutely.
    Chairwoman Waters. Thank you very much.
    I now recognize the gentleman from Texas, Mr. Green, for 5 
minutes for questions.
    Mr. Green. Thank you, Madam Chairwoman. And I thank the 
Mayor for appearing.
    Mr. Garcetti. Thank you.
    Mr. Green. Mayor, for simply edification purposes, while 
you may appear to be alone, it is happening in Houston also.
    Mr. Garcetti. Yes.
    Mr. Green. It is happening in Washington, D.C. And the 
numbers are growing for various and sundry reasons.
    One question for me to take to my constituents and persons 
who are interested in this in an acute way would be, what can 
we do to prevent--while we are not where you are, but we are 
headed in your direction, what should we do now to take 
preventive measures?
    Mr. Garcetti. Three things, and thank you for that 
question. First, restore at least to previous levels the 
housing funding from the Federal Government and pass this 
measure that Chairwoman Waters put forward.
    Second, put up assistance for eviction, legal assistance. 
Fund that. We are doing that out of dollars we don't really 
even have. But I know, Representative Garcia, you talked about 
being a Legal Aid lawyer. We are seeing--most landlords are 
good, but the unscrupulous ones have a disproportionately bad 
impact on your neighborhoods, and so we are giving legal 
assistance to folks who are threatened with eviction, who often 
face language barriers and poverty barriers and other things.
    And third, have a mental health system that isn't Stage 4 
intervention. If you really want to understand the folks on the 
street, not the people in the cars, necessarily, but in the 
shelters who are equally struggling and could become those 
folks on the street, but with the deep mental health needs, we 
wait until somebody is Stage 4.
    And if the four of us came into the emergency room with a 
substance abuse issue or a deep mental health problem, I bet 
none of the four of us would be seen, maybe one. If the four of 
us came in with broken legs, we will be treated anywhere in 
America. It is reprehensible that in this country at this time 
we wait until we are basically at Stage 4.
    And as you said, people are dying on our streets before we 
intervene with the right to mental healthcare in this City. 
When I walked that river yesterday, 9 out of 10, if not 10 out 
of the 10 people I spoke to, you could just see have mental 
health problems that are going untreated.
    And if you expect this just to be cleaned up by a bunch of 
folks who are going to bring either police officers or 
sanitation workers, that isn't going to happen. It has to be 
that at the same time we put housing in.
    And what I didn't finish with the President is, I found out 
that in Japan, where he said homelessness doesn't exist, it did 
a few years ago. A lot of seniors were homeless on the streets, 
and treated terribly in Japan. They were ashamed of it and 
shuttled away.
    And guess what the Japanese government did? They put 
forward housing assistance and income assistance and there are 
not homeless people on those streets of Japan anymore. This is 
about putting those resources in place on mental health, on 
income, and treating these things earlier.
    Mr. Green. Thank you, Mayor.
    Additional question. I don't want you to put yourself at 
risk by answering this question, but if you had the resources--
you have mentioned resources--what are we talking about and 
over what period of time?
    Mr. Garcetti. Yes.
    Mr. Green. If you had the necessary resources, how much and 
then over what period of time before you would give us what 
results?
    Mr. Garcetti. I remind people that those of us who are 
veterans are not different from non-veterans. We are as diverse 
as the non-veteran population, and that in 4 years we could 
reduce by 80 percent the veteran population in all of our 
complexity.
    It shows that if you had the resources, you could make a 
sizeable dent in 5 years, and you could end street homelessness 
in 10 years. But will people have the will to do that?
    And back to the Marshall Plan, will we build something to 
never let this happen again? So that when we see that day in 
Los Angeles, in Houston, and other places where homelessness 
comes down, will we have a system to catch people early, the 
mental health indicators, people being released from prison? 
There are great Federal changes, but is there a plan for these 
people?
    I say that in all seriousness because here in California, 
those of us who supported criminal justice reform, we saw a lot 
of people come out of our jails and prisons, but there was 
nobody to meet them and greet them and train them for a job and 
give them the substance abuse or mental health counseling they 
needed.
    So if they were in prison because they had a gram of 
something too much and went away for 20 years, they have never 
had that problem dealt with, and 3 weeks later, they are using 
again on the streets, and they are living in a tent. And they 
might be breaking into cars to feed that habit.
    We can do better. So, it is also put that in place. But I 
think a decade is what we are talking about.
    Mr. Green. Finally, and this is probably at a different 
level for us to take up, perhaps at a later time, but we have a 
circumstance wherein about 1 percent of the people hold about 
40 percent of the wealth, and the top 20 percent, hold about 90 
percent of the wealth.
    And I marvel at how we have been conditioned to believe 
that this is normal, this is the way it should be, that people 
at the very top should have enough wealth such that they alone 
could fund solutions.
    Mayor, I am not going to ask you to get into the 
distribution of wealth, but--
    Mr. Garcetti. I am always happy to do that.
    Mr. Green. --with the top 20 percent holding 90 percent of 
the wealth, is this a factor in this homelessness problem--and 
many others as well--but in the homelessness problem?
    Mr. Garcetti. Unquestionably. This is the biggest income 
gap and the biggest wealth gap we have had since the Great 
Depression. I say that as often as I can because this second 
gilded age feels like a lot of fun if you are doing well. There 
has never been a better time to be in cities in terms of the 
culture and the museums and the food and everything else.
    But even the successful cities have a deep underclass, and 
the other cities are being completely left behind. That is not 
what this country is. It is not who we are.
    When people get scared about redistribution, I always say 
forget about what is being taken away. What is the cost to you 
to drive through your own City and to see people living on the 
sidewalks and in tents? What is the cost to you when you tell 
me, your Mayor, to clean that up?
    Fifty thousand dollars a person at a time, and we won't do 
something to control our rents or do something to give people a 
little bit of assistance for 6 months so they can make that 
rent. That is what is perversely wrong in this moment.
    But I appreciate your voice and the voice of these Members 
to make sure that we don't forget there are structural reasons 
that we have a homelessness problem in Los Angeles and across 
this nation.
    Mr. Green. Thank you, Mr. Mayor.
    Madam Chairwoman, I yield back.
    Chairwoman Waters. Thank you very much. Thank you, Mr. 
Mayor.
    I now recognize the gentlelady from Texas, Ms. Garcia.
    Ms. Garcia of Texas. Thank you, Madam Chairwoman, again. 
And thank you, Mr. Mayor, for being here today.
    Mr. Garcetti. Thank you.
    Ms. Garcia of Texas. Your presence here today is a strong 
indicator of your concerns and your sentiments on this issue.
    I want to focus on something that several of the other 
speakers talked about, but no question has really come up that 
directly addresses it. I have had some real concerns, even in 
my own City, about the criminalization of homelessness.
    In addition to being from the same City and both being 
lawyers, my colleague, Representative Green, and I here at the 
table, are both former judges. And in lower jurisdiction 
courts, he saw a lot of landlord-tenant cases. I saw a lot of 
what I call tickets that are criminalizing behavior that really 
need to be addressed with proper treatment and care.
    And when I look at what some cities have done in having 
ordinances against camping or sleeping in cars or feeding of 
folks in public spaces, taking property that they have with 
them, there is just--I could go on and on.
    I just don't see where that gets us, and quite frankly, I 
don't like hardly any of these at all. I don't think that it 
solves any problem. I think it just creates more because all 
you are doing is incarcerating them. They stay there a little 
while, then they go back, and it is back to the same situation.
    I was raised Catholic, and I was told very early on in my 
growing ages that we are all God's children. And I was also 
taught to follow the Golden Rule, ``Do unto others as you want 
them to do unto you.''
    I ask you the question, quite candidly, and I hope you 
don't take offense--
    Mr. Garcetti. Yes, sure.
    Ms. Garcia of Texas. --but if you lost your job today and 
lost your house and lost everything and became homeless, would 
this be the way you would want to be treated, to get a ticket 
because you were sleeping in a car--
    Mr. Garcetti. That is right.
    Ms. Garcia of Texas. --or not being able to just have your 
own space somewhere that you can call your own?
    Mr. Garcetti. That is right. No, of course not. And thank 
you, Representative Garcia. First of all, welcome to LA.
    There is a double heartbreak going on--
    [Disturbance in the hearing room.]
    Mr. Garcetti. There is a double heartbreak that is going on 
right now. One is the number--
    [Disturbance in the hearing room.]
    Mr. Garcetti. One is the number of people--
    Chairwoman Waters. Please refrain from interfering with the 
testimony.
    Mr. Garcetti. The double heartbreak is, one, seeing so many 
people who are brothers and sisters on the streets and in cars 
and in shelters.
    The second is the loss of--
    Ms. Garcia of Texas. I'm sorry. I am really having 
trouble--could you get closer?
    Mr. Garcetti. Sure. There is a double heartbreak that is 
going on in many American cities, and I think Los Angeles is 
one. First and foremost, it is the sheer number of people who 
are now living on the streets, in cars, and in shelters.
    But second is also--
    Ms. Garcia of Texas. Right. But how does giving them a 
ticket solve the problem?
    Mr. Garcetti. No. I am going to get to that. I hear you 
loud and clear.
    But the second one is the death of public space in many 
communities where there is a second heartbreak that goes on 
every time somebody comes off of an offramp or walks through a 
park or is on the sidewalk.
    I do agree with you. And we are looking at an amnesty of 
all of those low offenses that have been built up through past 
Administrations and past years of those infractions here in Los 
Angeles.
    Ms. Garcia of Texas. Well, if you give them amnesty, that 
means they still stay on the books because--
    Mr. Garcetti. No, and to expunge.
    Ms. Garcia of Texas. So you would actually repeal all of 
those ordinances?
    Mr. Garcetti. Correct. And that is what I would like to see 
be done.
    Ms. Garcia of Texas. Excuse me, Mayor. But when would that 
be done?
    Mr. Garcetti. Our City Attorney is an independently elected 
individual, so we are working with the City Attorney's office, 
but to me, it can't happen soon enough.
    And our police chief has announced that as well. So it has 
the backing of our police department, which I think we are the 
largest city in America to have said that and to have done 
that. So we are ready to go as soon as our City Attorney and 
the court system is ready to go, too.
    Ms. Garcia of Texas. Right. Now, you are the City that had 
the ordinance also on taking property that, I guess, somebody 
has decided people don't need to be carrying around or have 
with them. And property was taken. Do you all keep track of 
that and return it to them--
    Mr. Garcetti. Yes.
    Mr. Green. --and if you do, at what time?
    Mr. Garcetti. We would invite you to the storage centers 
that we have and the need that we have for many more. But 
downtown, we have probably the largest storage center in 
America for individuals who are experiencing homelessness.
    They get a ticket to--that is their property. We keep it 
for them. They don't have to worry about it getting stolen on 
the street. They can take it out any time of day or night. They 
are able to go and have that and know that it is safe and 
secure.
    And we have said we cannot begin to do that--and the courts 
have agreed with us--you can't take people's property. By the 
way, you can never take their critical property unless--
    Ms. Garcia of Texas. Yes, we are talking about due process, 
and I might note, Mayor, that behind you, there are a couple of 
people who are shaking their heads that that is not true.
    Mr. Garcetti. No, and they are right. I would not say that 
there have not been mistakes in the past or that everybody is 
perfect even today when you talk about the tens of thousands of 
interactions that happen. My goal is to bring that as close to 
zero as possible because that is the standard we need to have.
    Second, a lot of communities, just like they say no to 
shelters, say no to even storage centers. So the difficulty of 
just finding the sheer number of places to do that and the 
expense to do it when there is no funding for this and you have 
to figure out a way to fund it, they are very expensive to run, 
in the millions of dollars a year just to do the storage.
    Third is, ideally, you have the storage where people are. 
So the new model that the chairwoman asked me about of where we 
are having shelters in the communities where people are 
homeless, where you can bring your pets and your property and 
your partners, it is that second piece that is absolutely 
critical. People aren't going to come off the street if they 
can't bring their stuff.
    Now, at the other end, we do have to all say there isn't an 
unlimited amount of space ever that when we have homelessness 
workers who are coming to us complaining that they can't get to 
and from work, because sometimes the single individual's 
belongings are as wide as this entire table, we have to be able 
to make that a services-led, not law enforcement, interaction 
to reduce the amount of space that somebody has so that folks 
can get to and from the services they need to have, so that 
people don't become cocooned.
    And I will say one last thing. For serious crimes, if you 
want to get deep into this, for the encampments that happen, 
there are people who prey on the folks who are there, who set 
up shop, who are the serious drug dealers, who are folks who 
are raping people in tents, and people's unhoused status should 
not ever shield you from accountability for serious crimes.
    And so we can't go so far also that we kind of back off 
completely of any police presence to protect the very same 
people who are themselves going through the deepest of traumas.
    Ms. Garcia of Texas. Yes. And certainly, I am not talking 
about any serious crimes. I am talking about what I call--
    Mr. Garcetti. Of course.
    Ms. Garcia of Texas. --some of the things that a lot of 
cities are doing to target the homeless to, ``get them off the 
street and not be seen,'' especially in downtown areas. And 
again, I have seen that even in my own City.
    Mr. Garcetti. Sure.
    Ms. Garcia of Texas. But my concern was when I read the 
memo that the committee gave us, it was saying that in this 
City, it had increased by 31 percent since 2011. That is really 
significant.
    Mr. Garcetti. No. That number is because for the first 
time, I demanded we track those. It is not comparing apples to 
apples. It is for the first time we are actually counting them.
    So it was counting over the years in which we barely 
counted or did not even count. I now wanted to know. Code every 
single time there is something that is happening to or by 
somebody who is experiencing homelessness so that we can have 
those numbers. In the coming years, we will be able--but it has 
not gone up 31 percent.
    Ms. Garcia of Texas. So are any services provided while 
they are in jail to kind of help them transition or help them--
    Mr. Garcetti. In my opinion, no. And the cities don't--we 
do have small lockup facilities. But the jails are the County 
and State, and prisons are the State's responsibilities. 
Absolutely not enough.
    And if we want to solve homelessness, I think a big part of 
that small sliver of criminal activity that is happening among 
people who are unhoused is happening because people are coming 
out of the jails and prisons without a plan. The savings we 
were promised by the criminal justice reforms that would go to 
local government, instead of putting folks in a prison system, 
we don't see.
    Ms. Garcia of Texas. One final question. So if we could put 
a package together or to add to address this specific issue, 
to--again, I fail to see why cities even do it, but to help you 
to make sure that you didn't have to criminalize homelessness, 
what would that one thing be other than funding?
    Mr. Garcetti. We need storage, for sure.
    Ms. Garcia of Texas. Storage.
    Mr. Garcetti. I don't know, other than funding, if there is 
anything that the Federal Government has the power to do or 
that we would want. We need money to be able to create the 
systems where people can store their goods.
    Training for law enforcement officials and City officials 
who do this. We think we have now some of the best practice. We 
have been meeting with advocates and from their suggestions 
have a different regime.
    It used to be led by six or seven police officers and then 
sanitation officials, and it was the wrong message. It was 
traumatic for people in the streets. Now it is led by people 
with lived experience, mental health professionals, and people 
who are even giving trash bags to folks.
    We are paying 20 people. We just launched 20 people, who 
are themselves experiencing homelessness, with jobs to clean up 
around the areas where they are unhoused, so to empower them 
with job experience, with some income. They want to clean up, 
and they say give us the trash bags, let us have the training.
    So those sorts of things help, but I don't know if it 
doesn't come without money, any of them.
    Ms. Garcia of Texas. Thank you, Mr. Mayor.
    I yield back. Thank you, Madam Chairwoman, for your 
indulgence on the overtime.
    Chairwoman Waters. Thank you very much.
    I would like to thank the Mayor for his valuable time, and 
again thank all of our witnesses for their testimony today.
    The Chair notes that some Members may have additional 
questions for today's panels, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    And before adjourning, I would like to recognize from Watts 
Century Latino Organization, Arturo Ybarra, the Executive 
Director. Thank you, Arturo, for being here.
    Also, Reverend Reginald Pope, Bethel Missionary Baptist 
Church. He is one of the leaders in the Watts Ministers. He had 
to leave, but give him a big round of applause anyway.
    And of course, last but not least, someone that we all know 
as an advocate on everything, ``Big Money Griff'' is here.
    Without objection, this hearing is now adjourned.
    [Whereupon, at 1:43 p.m., the hearing was adjourned.]

                            A P P E N D I X

                            August 14, 2019
                            

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                               [all]
</pre></body></html>
